<html>
<title> - THE MISSION OF THE U.S. ENVIRONMENTAL PROTECTION AGENCY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



        THE MISSION OF THE U.S. ENVIRONMENTAL PROTECTION AGENCY

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       THURSDAY, DECEMBER 7, 2017

                               __________

                           Serial No. 115-85



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-838                         WASHINGTON : 2018 























                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana                 Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

                      Subcommittee on Environment

                         JOHN SHIMKUS, Illinois
                                 Chairman
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    RAUL RUIZ, California
TIM MURPHY, Pennsylvania             SCOTT H. PETERS, California
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
GREGG HARPER, Mississippi            DIANA DeGETTE, Colorado
PETE OLSON, Texas                    JERRY McNERNEY, California
BILL JOHNSON, Ohio                   TONY CARDENAS, California
BILL FLORES, Texas                   DEBBIE DINGELL, Michigan
RICHARD HUDSON, North Carolina       DORIS O. MATSUI, California
KEVIN CRAMER, North Dakota           FRANK PALLONE, Jr., New Jersey (ex 
TIM WALBERG, Michigan                    officio)
EARL L. ``BUDDY'' CARTER, Georgia
GREG WALDEN, Oregon (ex officio)
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     2
    Prepared statement...........................................     4
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     5
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     8
    Prepared statement...........................................     8
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     9

                               Witnesses

Scott Pruitt, U.S. EPA Administrator.............................    11
    Prepared statement...........................................    13
    Answers to submitted questions...............................    94

                           Submitted Material

Letter of December 14, 2011, from the Committee to the U.S. 
  Environmental Protection Agency, submitted by Mr. Walden.......    73
Letter of May 4, 2012, from the U.S. Environmental Protection 
  Agency to the Committee, submitted by Mr. Walden...............    77
Statement of the American Geophysical Union, submitted by Mr. 
  Tonko..........................................................    82
Statement of the Asbestos Disease Awareness Organization, 
  submitted by Mr. Pallone.......................................    83
Statement of Safer Chemicals Healthy Families, submitted by Mr. 
  Pallone........................................................    85
Letter of August 28, 2017, from the U.S. Environmental Protection 
  Agency to Ranking Member Pallone, submitted by Mr. Cardenas....    88
Letter of October 17, 2017, from the U.S. Environmental 
  Protection Agency to Ranking Member Pallone, submitted by Mr. 
  Cardenas.......................................................    82
Report entitled, ``Fumes Across the Fence-Line,'' by the NAACP 
  and the Clean Air Task Force, November 2017, submitted by Mr. 
  Tonko \1\
Report entitled, ``'Swamped' 200 Ways in 200 Days,'' by Democracy 
  Reform Task Force, August 8, 2017, submitted by Mr. Sarbanes 
  \2\
Report entitled, ``'Still Swamped' 300 Ways in 300 Days,'' by 
  Democracy Reform Task Force, November 16, 2017, submitted by 
  Mr. Sarbanes \3\
Report on asbestos, submitted by Mr. Shimkus.....................    92

----------
\1\ The information can be found at: https://docs.house.gov/
  meetings/if/if18/20171207/106701/hhrg-115-if18-20171207-
  sd011.pdf.
\2\ The information can be found at: https://docs.house.gov/
  meetings/if/if18/20171207/106701/hhrg-115-if18-20171207-
  sd006.pdf.
\3\ The information can be found at: https://docs.house.gov/
  meetings/if/if18/20171207/106701/hhrg-115-if18-20171207-
  sd005.pdf.

 
        THE MISSION OF THE U.S. ENVIRONMENTAL PROTECTION AGENCY

                              ----------                              


                       THURSDAY, DECEMBER 7, 2017

                  House of Representatives,
                       Subcommittee on Environment,
                           Committee on Energy and Commerce
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2123 Rayburn House Office Building, Hon. John Shimkus 
(chairman of the subcommittee) presiding.
    Members present: Representatives Shimkus, McKinley, Barton, 
Blackburn, Harper, Olson, Johnson, Flores, Hudson, Cramer, 
Walberg, Carter, Duncan, Walden (ex officio), Tonko, Ruiz, 
Peters, Green, DeGette, McNerney, Cardenas, Dingell, Matsui, 
and Pallone (ex officio).
    Staff present: Ray Baum, Staff Director; Mike Bloomquist, 
Deputy Staff Director; Samantha Bopp, Staff Assistant; Adam 
Buckalew, Professional Staff Member, Health; Allie Bury, 
Legislative Clerk, Energy/Environment; Karen Christian, General 
Counsel; Kelly Collins, Staff Assistant; Jerry Couri, Chief 
Environmental Advisor; Zachary Dareshori, Staff Assistant; 
Jordan Davis, Director of Policy and External Affairs; Wyatt 
Ellertson, Research Associate, Energy/Environment; Margaret 
Tucker Fogarty, Staff Assistant; Adam Fromm, Director of 
Outreach and Coalitions; Ali Fulling, Legislative Clerk, 
Oversight & Investigations, Digital Commerce and Consumer 
Protection; Jordan Haverly, Policy Coordinator, Environment; 
Zach Hunter, Director of Communications; A.T. Johnston, Senior 
Policy Advisor, Energy; Peter Kielty, Deputy General Counsel; 
Ben Lieberman, Senior Counsel, Energy; Mary Martin, Deputy 
Chief Counsel, Energy & Environment; Drew McDowell, Executive 
Assistant; Brandon Mooney, Deputy Chief Energy Advisor; Mark 
Ratner, Policy Coordinator; Annelise Rickert, Counsel, Energy; 
Christopher Santini, Counsel, Oversight & Investigations; Dan 
Schneider, Press Secretary; Peter Spencer, Professional Staff 
Member, Energy; Madeline Vey, Policy Coordinator, Digital 
Commerce and Consumer Protection; Evan Viau, Legislative Clerk, 
Communications & Technology; Hamlin Wade, Special Advisor, 
External Affairs; Everett Winnick, Director of Information 
Technology; Priscilla Barbour, Minority Energy Fellow; Jeff 
Carroll, Minority Staff Director; Jacqueline Cohen, Minority 
Chief Environment Counsel; Jean Fruci, Minority Energy and 
Environment Policy Advisor; Evan Gilbert, Minority Press 
Assistant; Caitlin Haberman, Minority Professional Staff 
Member; Rick Kessler, Minority Senior Advisor and Staff 
Director, Energy and Environment; John Marshall, Minority 
Policy Coordinator; Jon Monger, Minority Counsel; Alexander 
Ratner, Minority Policy Analyst; Andrew Souvall, Minority 
Director of Communications, Outreach and Member Services; Tuley 
Wright, Minority Energy and Environment Policy Advisor; C.J. 
Young, Minority Press Secretary; and Catherine Zander, Minority 
Environment Fellow.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. The subcommittee will now come to order. 
Before I begin my opening statement, I want to make a general 
announcement to members about the process today. After months 
of trying to find a mutually acceptable date for a hearing, the 
committee was able to finally get agreement with the 
administrator to join us and we announced it. At the end of 
last week, however, the committee learned Mr. Pruitt was being 
summoned to meet with his boss, the President, for 90 minutes 
around lunch.
    Rather than agreeing to start the whole process over and/or 
the hearing earlier and to have a defined end time, or push the 
entire hearing to a late afternoon start time, or try to find 
another mutually acceptable date, we have come to an agreement 
which we understand is not ideal, but gives members maximum 
flexibility to personally question the administrator about the 
Agency's missions.
    Therefore, we will proceed with opening statements, the 
administrator's testimony, and members' questions until 11:00 
a.m. We will recess at that time and reconvene at 2:00 p.m. in 
2322 which is upstairs. We expect the administrator will stay 
with us until committee members who are present or want to ask 
questions have been given their turn to ask questions.
    I will also note that there is going to be a voting period 
in this last block and we are going to try with the help of my 
colleagues to keep the hearing going through that vote series. 
I have done it before years ago. It is a juggling, but we are 
going to try to get that done.
    Administrator Pruitt, I want to thank you for joining us 
today and discussing issues the Environment Subcommittee has 
jurisdiction over. Notably, the Clean Air Act, CERCLA, which is 
a Superfund act, the Solid Waste Disposal Act, the Safe 
Drinking Water Act, and Toxic Substances Control Act, one that 
this committee is very proud of passing in the last Congress.
    A few years ago, we began an effort to tackle updating and 
authorizing a number of these laws and have been waiting for 
the opportunity for you and someone from your agency to be here 
so that we can discuss the Administration's position on these 
important changes to the laws and how EPA implements them. We 
are also tasked with the oversight of these EPA programs and we 
look forward to being able to start conducting oversight 
hearings soon.
    Today, we would like to start dialogue with you about your 
vision and priorities for the EPA. You noted at the outset of 
your tenure at the EPA that your goal was to refocus EPA on its 
intended mission, return power to the states and create an 
environment where jobs can grow. And your agenda focused on the 
three Es: environment and protecting the environment; economy, 
sensible regulations that allow economic growth; and 
engagement, engaging with state and local partners. You also 
stated that EPA would ``operate with the statutes that Congress 
passes and not reimagining authority to pick winners and 
losers.'' That sounds like you are headed in the right 
direction.
    We support analyzing regulatory barriers to determine 
whether they create unnecessary burdens or impede job creation 
and we want to work with you to make sure that the EPA develops 
and implements regulations that protect the environment while 
promoting growth and creating jobs. You said it best in a 
statement you made when you kicked off your back to the basics 
agenda earlier this year. We can and will achieve a clean air 
and a clean water and we will also have strong economic growth 
and job creation at the same time.
    We have some specific areas of focus that we would like to 
discuss today and continue to work with you and your staff as 
we go forward. The first is Superfund cleanup. You have 
indicated that Superfund cleanup is a priority of the Agency 
and that several clean up efforts have been ``restored to the 
rightful place at the center of the Agency's core mission.''
    You have also noted that you intend to figure out ways to 
cut through bureaucratic red tape that has slowed the cleanup 
of Superfund sites and that EPA is creating a list of the top 
ten sites that the Agency can aggressively address. We want to 
work with you on these efforts and work together to figure out 
what Congress can do to help make Superfund cleanups more 
efficient.
    The next issues are the Toxic Substances Control Act and 
the Safe Drinking Water Act. Last year, this committee was 
responsible for overhauling TSCA and we are interested in the 
appropriate and the timely implementation of the rules that are 
the outgrowth of the new law. We also look forward to work with 
the Agency as we have reauthorized funding and make 
improvements in the law to improve compliance with the Safe 
Drinking Water Act.
    Last but not least, the Clean Air Act. Our members are 
actively engaged on several air issues like the Clean Power 
Plan, the EPA's recent ozone standard which has created 
obstacles to new infrastructure development and manufacturing. 
We also want to look into addressing the challenges relating to 
obtaining air permits required for new construction and 
expansions of the existing facilities under EPA's New Source 
Review program.
    Administrator Pruitt, the long and the short of it is that 
we have an agenda packed with legislative and oversight 
activities and we need the EPA to be engaged participants that 
work with us as we move forward. We need to be assured that the 
Agency will send us witnesses for legislative and oversight 
hearings and in turn we will work with you to figure out where 
Congress needs to act to help you accomplish your mission, the 
Agency's goals of providing regulatory certainty, balancing 
environmental benefits and economic practicalities, and 
restoring confidence to regulated entities across the country.
    Thank you for coming up here and we look forward to 
continuing this conversation in the new year. And with that I 
will yield back my time and turn to my friend from New York, 
Mr. Tonko, for 5 minutes.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    The Subcommittee will now come to order.
    Before I begin my opening statement, I want to make a 
general announcement to members about process for today. After 
months of trying to find a mutually acceptable date for a 
hearing, the Committee was able to finally get agreement from 
Administrator Pruitt to join us and we announced it. At the end 
of last week, however, the Committee learned Mr. Pruitt was 
being summoned to meet with his boss, the President, for 90 
minutes around lunch. Rather than agreeing to start the hearing 
earlier and have a defined end time, push the entire hearing to 
a late afternoon start time, or try to again find another 
mutually acceptable date, we have come to an agreement which we 
understand is not ideal, but gives members maximum ability to 
personally question the Administrator about the Agency's 
mission.
    Therefore, we will proceed with opening statements, the 
Administrator's testimony, and Member questions until 11am. We 
will recess at that time and reconvene at 2pm in 2322. We 
expect the Administrator will stay with us until Committee 
Members who are present and want to ask questions have been 
given their turn to ask questions.
    Administrator Pruitt I want to thank you for joining us 
today and discussing issues the Environment Subcommittee has 
jurisdiction over, notably, the Clean Air Act, CERCLA, the 
Solid Waste Disposal Act, the Safe Drinking Water Act, and the 
Toxic Substances Control Act. A few years ago, we began an 
effort to tackle updating and reauthorizing a number of these 
laws and we have been waiting for the opportunity for you or 
someone from your Agency to be here so that we can discuss the 
Administration's position on these important changes to the 
laws EPA implements. We are also tasked with oversight of these 
EPA programs and we look forward to being able to start 
conducting oversight hearings soon.
    Today we would like to start a dialogue with you about your 
vision and priorities for EPA.
    You noted at the outset of your tenure at EPA that your 
goal was to refocus EPA on its intended mission, return power 
to the states, and create an environment where jobs can grow, 
and your agenda focused on the three E's:
    Environment: Protecting the environment;
    Economy: Sensible regulations that allow economic growth;
    Engagement: Engaging with state and local partners.
    You also stated that EPA should ``operate within the 
statutes that Congress passes and not reimagine authority to 
pick winners and losers.''
    That sounds like you are headed in the right direction. We 
support analyzing regulatory barriers to determine whether they 
create unnecessary burdens or impede job creation and we want 
to work with you to make sure that EPA develops and implements 
regulations that protect the environment while promoting growth 
and creating jobs. You said it best in a statement you made 
when you kicked off your ``back to basics'' agenda earlier this 
year, ``we can, and we will achieve clean air and clean water 
and we will also have strong economic growth and job creation 
at the same time.''
    We have some specific areas of focus that we would like to 
discuss today and continue to work on with you and your staff 
going forward.
    The first is Superfund cleanup. You have indicated that 
Superfund cleanup is a priority of the Agency and that several 
cleanup efforts have been ``restored to their rightful place at 
the center of the agency's core mission.'' You have also noted 
that you intend to figure out ways to cut through the 
bureaucratic red tape that has slowed the cleanup of Superfund 
sites and that EPA is creating a list of the top ten sites that 
the agency can aggressively address. We want to work with you 
on these efforts and work together to figure out what Congress 
can do to help make Superfund cleanups more efficient.
    The next issues are Toxic Substances Control Act and the 
Safe Drinking Water Act. Last year, this Subcommittee was 
responsible for overhauling TSCA and we are interested in the 
appropriate and timely implementation of the rules that are the 
outgrowth of the new law. We also look forward to work with the 
Agency as we reauthorize the funding and make improvements in 
the law to improve compliance with the Safe Drinking Water Act.
    Last, but not least, the Clean Air Act. Our members are 
actively engaged on several air issues like the Clean Power 
Plan and EPA's recent ozone standard, which has created 
obstacles to new infrastructure development and manufacturing. 
We also want to look into addressing the challenges relating to 
obtaining air permits required for new construction and 
expansions of existing facilities under EPA's New Source Review 
program.
    Administrator Pruitt, the long and short of it is that we 
have an agenda packed with legislative and oversight activities 
and we need EPA to be an engaged participant that works with us 
as we move forward. We need to be assured that the Agency will 
send us witnesses for legislative and oversight hearings and in 
turn, we will work with you to figure out where Congress needs 
to act to help accomplish the Agency's goals of providing 
regulatory certainty, balancing environmental benefits and 
economic practicalities, and restoring confidence to regulated 
entities across the country. Thank you for coming up here and 
we look forward to continuing this conversation in the new 
year.
    With that, I yield back my time and now yield to my friend 
from New York, the Ranking Member of the Subcommittee, Mr. 
Tonko.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chair. And thank you, 
Administrator Pruitt. Thank you for being here this morning. 
However, I fully expected that you, Mr. Administrator, as a 
proud Oklahoman, would have been here Sooner.
    [Laughter.]
    Mr. Tonko. All right. In all seriousness, Mr. 
Administrator, I hope this is the first of many appearances, 
regular appearances before our Energy and Commerce Committee. 
Your predecessors came before this committee frequently and I 
can tell you it wasn't because they liked being berated every 
other 5 minutes for a few hours, it was because they understood 
that they had a responsibility to be accountable to Congress.
    So I expect moving forward you will provide administration 
witnesses, responses to letters, and technical assistance 
quickly when we ask. I know many members have serious concerns 
about the direction of EPA in the past year which is why there 
is so much interest in today's hearing. Members will raise 
questions about how you have chosen to be a steward of taxpayer 
funds, who has had access to you, and the growing influence of 
industry at the Agency.
    Members will also question the rollback of a number of 
safeguards that were put into place to protect human health. In 
July, the New York Times published an article, ``Counseled by 
Industry, Not Staff, EPA Chief Is Off to a Blazing Start,'' 
which reported more than 30 environmental rules being delayed 
or undone. And often these public health safeguards are being 
undone with little or no legal or scientific justification.
    I think it is worthy noting that, historically, the 
majority of EPA rules have withstood legal challenges, 
including challenges led by you in your capacity as Oklahoma's 
attorney general. EPA's decisions should be guided by sound 
science, not corporate interests and these concerns touch every 
office under your charge--clean water, air quality, 
contaminated lands, chemical safety, pesticides to name a few.
    From my view, rules across the Agency are being undone 
capriciously with little regard to the human impacts or the 
science that went into developing them. In fact, many states 
and industries were partners during the process when these 
rules were developed. Frankly, I believe EPA has all the signs 
of an agency captured by industry. You shouldn't need to be 
traded on the New York Stock Exchange or need an invite to a 
private steak dinner at a Trump hotel in order to get an 
audience with the EPA administrator.
    I am particularly concerned about Agency actions on climate 
change. The Fourth National Climate Assessment Climate Science 
Special Report, a thorough, comprehensive report by the federal 
government, has reaffirmed what the scientific community has 
long known, climate change is real, primarily caused by human 
activity, and a serious threat to our people and our economy.
    Despite this scientific consensus, EPA has begun to roll 
back rules at the behest of special interests to address 
greenhouse gas emissions which have been developed over many 
years, backed by science, and include economic impact studies. 
This is just one example in a trend of dismissing the role of 
science at EPA.
    Scientific integrity of the Agency must be protected. 
Instead, we have witnessed the proposed elimination of research 
funding and eroding of technical and scientific capacity. The 
dismissal of qualified members of the Scientific Advisory Board 
the removal of information from EPA's website and the 
censorship of Agency scientists from participating in public 
events are incredibly troubling.
    Finally, I want to take a minute to recognize the work done 
by EPA's career employees. I know these dedicated public 
servants joined the Agency to protect human health and the 
environment and are to be commended for their hard work in this 
difficult environment.
    But as the workforce is reduced, as the advice of the 
experts is ignored, and as morale at the Agency decreases, I 
know there will be an inclination to pursue other career 
opportunities. Our country cannot afford to lose the 
institutional knowledge at an agency as important as EPA or 
fail to attract the next generation of qualified, dedicated 
public servants. I want to thank EPA's employees, know that 
your work is greatly appreciated by members here and beneficial 
to Americans across our great country.
    Back to basics does not mean starving the Agency of its 
resources and personnel that it needs to do its job. It does 
not mean giving lip service to protecting clean air and water 
while rolling back dozens of essential rules. EPA's success has 
been about making steady progress over time and EPA has proven 
to be a resilient agency in the past, but this year we have 
witnessed a number of alarming decisions and I hope we will get 
answers to better understand some of those decisions today, Mr. 
Administrator.
    And again we welcome you before this committee. Thank you 
so much and I yield back, Mr. Chair.
    Mr. Shimkus. The gentleman yields back his time. The chair 
now recognizes the chairman of the full committee, Mr. Walden 
from Oregon, for 5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Mr. Chairman.
    Good morning, Mr. Administrator. We are delighted to have 
you before the House Energy and Commerce Committee. I think 
this is your first oversight hearing on The Hill and we are 
delighted that we could have you here to tell us what is going 
on at the EPA, to take our questions and to hear what we have 
to say. I am obviously disappointed the President called you 
out in between, but I appreciate the fact you will be here this 
morning and come back this afternoon and continue to 
participate in this process.
    With this I am going to yield briefly to my friend from 
Oklahoma who would like to formally introduce you to the 
committee, and with that I will yield 30 seconds to Mr. Mullin 
from Oklahoma.
    Mr. Mullin. Thank you, Chairman Walden. Thank you, Chairman 
Shimkus, for allowing me to participate. I have the great 
privilege of introducing Oklahoma's own Scott Pruitt to our EPA 
administrator. Thank you, sir, for being here.
    First, I want to thank Mr. Pruitt for making himself 
available for today's hearing. Administrator Pruitt and his 
team have worked tirelessly to bring the EPA back to its core 
mission, protecting our environment in common sense ways with 
input from our states, local government, and tribes to a 
collaborated approach which is a breath of fresh air. Nobody 
wants to take care of our backyards more than us in our states. 
That is why I want to thank Mr. Pruitt for doing what is right 
by having the input of those with interests there.
    Mr. Pruitt, thank you for coming here today. Thank you for 
making the whole state proud. I appreciate you and I yield back 
to Chairman Walden.
    Mr. Walden. I thank the gentleman for his introduction of 
our witness today. And as you know, Administrator Pruitt, the 
committee you are appearing before today is charged by the 
House of Representatives with legislative and oversight 
responsibilities for the bulk of the statutes that the EPA 
implements. We may not write the check to the EPA--the 
appropriators claim to do that--but we are your authorizing 
agency or committee.
    It has been almost 10 months since you were sworn in as 
administrator of an agency that turned 47 this past Monday, so 
today I would like to begin with what will hopefully be a 
continuing conversation about the agency that you oversee, your 
vision for it, and what challenges you face. I am particularly 
intrigued by your back to basics concepts and your stated 
intent to return EPA from its freewheeling administrative 
pursuits to its mission of protecting air, soil, and water and 
doing so according to explicit dictates of Congress. I hope 
that this view of governing will guide your EPA, rather than 
efforts to end run Congress in the Federal Register or on the 
courthouse steps.
    I also want to discuss the goals you are establishing for 
the programs at EPA and the metrics you intend to use to 
measure their progress. In particularly, I want to know that 
you have a plan to address staffing issues identified by the 
Agency's Inspector General for over the last 2 decades. This is 
a 20-year-old problem you are inheriting, but it is one I think 
we both take seriously.
    So we appreciate your commitment to budget transparency and 
as we want to make sure the public knows how each law is being 
implemented and how the money is being spent, I expect that 
back to basics is not an abdication of environmental 
protection, but rather a rededication of mastering the most 
fundamental aspects of EPA's mission.
    Whether it is cleaning up Superfund sites, ensuring that 
safe drinking water is being piped into people's homes, or 
keeping air clean and safe to breathe, this is the primary 
mission of the EPA. While these jobs may sound mundane, as any 
football fan will appreciate they are like the essential 
blocking and tackling techniques and so we appreciate what you 
are doing on all of that.
    I also want to thank you and your team for your attention 
to the Superfund cleanup in the Portland Harbor. While this 
area is not in my district, it is in my state and what happens 
at the Port of Portland has an impact on all Oregonians. You 
brought a fresh and a welcome approach to this complicated and 
costly cleanup.
    Unlike the prior administration, you have proven that this 
administration wants to actually clean up this environmental 
mess and do the work in a common sense manner in close working 
partnership with local stakeholders. To paraphrase an old song, 
if you can do it there you can do it anywhere.
    And so I thank you for being here. I thank you for your 
collaborative work on the Portland Superfund cleanup. We know 
we have more effort to achieve there, but everybody--well, not 
everybody, but most people affected by it including the port 
and city and everybody else saying thank you, now we feel like 
we have hope and a chance to get this done right, so thanks for 
your work there.
    With that Mr. Chairman, I would yield back the balance of 
my time to the committee.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Good morning, Mr. Administrator, we are glad to have you 
here this morning and we hope you will return often during your 
tenure. I am disappointed that your appearance must be 
interrupted by your meeting with the President, but I 
appreciate your willingness to come back and continue the 
discussion with our committee.
    Before I begin my remarks, I'd like to yield 60 seconds to 
Rep. Mullin so he can say a few words about a fellow Oklahoman.
    As you know, the committee you are appearing before today 
is charged by the House of Representatives with legislative and 
oversight responsibility for the bulk of the statutes that the 
Environmental Protection Agency implements. We may not write 
the check to EPA, but we decide where the agency's money can 
best be spent.
    It has been almost 10 months since you were sworn in as the 
Administrator of the Environmental Protection Agency--an agency 
that turned 47 years old this past Monday. Today, I would like 
to begin what will hopefully be a continuing conversation about 
the agency you run, your vision for it, and what challenges you 
face.
    I am particularly intrigued by your ``Back to Basics'' 
concept and your stated intent to return EPA from its 
freewheeling administrative pursuits to its mission of 
protecting air, soil, and water--and doing so according to the 
explicit dictates of Congress. I hope that this view of 
governing will guide your EPA--rather than efforts to end run 
Congress in the Federal Register or on the courthouse steps.
    I also want to discuss the goals you are establishing for 
the programs at EPA and the metrics you intend to use to 
measure their progress. Particularly, I want to know that you 
have a plan to address staffing issues identified by the 
agency's Inspector General over the last two decades and I 
would like to make sure that you are committed to budget 
transparency, so the public knows how much the agency is 
spending to implement each of the laws we passed.
    I expect that ``Back to Basics'' is not an abdication of 
environmental protection, but rather a rededication to 
mastering the most fundamental aspects of EPA's mission--
whether it's cleaning up Superfund sites, ensuring that safe 
drinking water is being piped into people's homes, or keeping 
air clean and safe to breathe.
    While these jobs may sound mundane, as any football fan 
will appreciate, they are like the essential ``blocking and 
tackling'' techniques that any football team--whether in 
Norman, Stillwater, Tulsa, or Eugene--must master if they 
expect to be successful. No matter how brilliant the offensive 
or defensive strategies may be, if the team cannot nail down 
the basics, success will be elusive.
    The public deserves to be protected and common-sense 
regulations are important and necessary. However, government 
solutions should be proportional to the problems they are 
tasked by congress to solve. I believe the EPA should focus on 
innovative problem solving and partnerships with the states and 
the private sector that leverage their resources and expertise.
    I want to thank you and your team for your attention to the 
superfund cleanup in the Portland Harbor. While this area is 
not in my district, it is in my state and what happens at the 
Port of Portland has an impact on all Oregonians. You have 
brought a fresh and welcome approach to this complicated and 
costly cleanup. Unlike the prior administration, you've proven 
that this administration wants to actually clean up 
environmental messes, and do the work in a commonsense manner 
in in close working partnership with local stakeholders. To 
paraphrase an old song, if you can do it there, you can do it 
anywhere.
    Thank you again for being here to discuss the agency's 
mission and your vision for it.
    I look forward to working with you and seeing you back here 
in the future concerning our mutual efforts to protect the 
public and the environment.

    Mr. Shimkus. The gentleman yields back his time. The chair 
now recognizes the ranking member of the full committee, Mr. 
Pallone from New Jersey, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. I have served in 
Congress alongside both Democratic and Republican 
administrations and in my experience the lack of transparency 
and cooperation from this Administration is completely 
unprecedented. The Environmental Protection Agency under 
Administrator Pruitt has consistently failed to respond to 
congressional oversight requests. In a few instances when we 
have actually received responses they are perfunctory at best.
    EPA has also refused to testify at legislative and 
oversight hearings and has refused to respond to some basic 
requests for technical assistance on legislation that has moved 
or is moving its way through this committee. Even today, after 
finally agreeing to appear before this authorizing committee 
some 10 months into his term, Administrator Pruitt is planning 
to leave after only 1 hour. And this is not the way any agency 
is supposed to interact with its authorizing committee.
    I would hope that this frustration is not only felt by 
committee Democrats and I would hope to see a change from both 
the EPA and the overall Trump administration. This lack of 
transparency applies not just to Congress but also to the 
press, the public, and even EPA's career staff. The stories 
coming from the Agency paint a pretty bleak picture. While we 
know the Administration has wasted more than $58,000 of 
taxpayer money on private jets and noncommercial flights, Mr. 
Pruitt's schedule has been largely kept secret and this week a 
major newspaper had to sue the Agency for access to this 
important public record.
    Meanwhile, EPA career staff have been excluded from 
meetings. When they do participate they are apparently blocked 
from bringing phones and even pen and paper with them. 
Moreover, Administrator Pruitt has reportedly used $25,000 of 
public funds to build a secret phone booth in his office to 
further isolate himself from the staff and any and all 
scrutiny. And why all the secrecy, one has to wonder.
    Mr. Pruitt has also launched an unprecedented assault on 
independent science, purging academic scientists with no 
conflicts from Science Advisory Board and replacing them with 
industry employees. At the same time, he has ignored the advice 
and conclusions of his own scientific staff on numerous 
occasions.
    Today's hearing is supposedly about the mission of the EPA. 
According to the EPA itself, the Agency mission is to protect 
human health and the environment and no one cares more about 
that mission than EPA's career staff. Ignoring the staff, 
undermining the staff, and cutting the staff out of decisions, 
amounts to ignoring and undermining that mission, in my 
opinion.
    Administrator Pruitt has been on a press tour lately 
proclaiming his vision of what the EPA's mission means and what 
it means to be an environmentalist and his words ring hollow 
because his actions have consistently and systematically 
undermined protections for human health and the environment.
    I have only 5 minutes, Mr. Chairman, so I can't list all 
the actions the administrator has taken to undermine 
protections for public health and specifically for vulnerable 
populations including workers, children, and Native American 
tribes, but I want to give a few examples.
    First, pulling out of the Paris agreement; second, pulling 
back the Clean Power Plan; third, rolling back protections from 
toxic air pollutants including mercury, methane, and smog then 
handing implementation of the toxic chemicals reform law just 
signed into law last year over to industry lobbyists; reversing 
the decision to ban the toxic pesticide chlorpyrifos; delaying 
and undermining the risk management planning program that 
should protect workers and communities; and, finally, reversing 
course on Superfund financial assurance requirements putting 
more of the burden on taxpayers and less on polluters.
    With accomplishments like this, it is no wonder that the 
administrator is working so hard to hide his actions. But the 
American people need transparency and they deserve honesty from 
both the EPA and the White House and perhaps today's hearing 
will be the beginning of a new, more transparent era.
    To his credit, Administrator Pruitt reached out to me in 
advance of this hearing and requested a meeting which we did 
have, but if the administrator wants to improve his 
relationship with the members of the committee, the steps he 
needs to take are clear. He needs to provide the documents we 
have requested and will request in the future. He needs to 
provide substantive answers to our oversight questions, and he 
needs to make himself and other EPA staff available as 
witnesses routinely.
    And if the administrator wants to earn the trust of the 
American people he needs to stop the secrecy and his war on 
science and reverse the systematic rollback of public 
protections. It is the mission of the EPA to protect the public 
health and the environment and not attack it. And I yield back, 
Mr. Chairman.
    Mr. Shimkus. The gentleman yields back his time.
    Now we turn to our guest. We would like to welcome and 
thank you, our distinguished witness, U.S. EPA Administrator 
Scott Pruitt, for being here today. You will have an 
opportunity to give an opening statement followed by a round of 
questions from members. We appreciate you being here and you 
are recognized for 5 minutes.

       STATEMENT OF SCOTT PRUITT, U.S. EPA ADMINISTRATOR

    Mr. Pruitt. Well, Chairman Shimkus, Ranking Member Tonko, 
Chairman Walden, Ranking Member Pallone, it is good to see you 
this morning, and other members that I have not had the chance 
to meet. I look forward to the discussion today.
    It was a year ago today that the President announced my 
nomination to the Environmental Protection Agency; thus began 
the process, the confirmation process which culminated in mid-
February and began serving in that timeframe as well.
    It has been a very, very consequential and I think exciting 
10 months as I have been at the EPA. We have focused our 
efforts on three core principles as we are seeking to make 
decisions. As I said during the Senate confirmation process, 
rule of law would again take center as we make decisions around 
the responsibilities that I have as administrator.
    Fundamentally, my job as the administrator of the EPA is to 
administer statutes that you have passed as Congress to advance 
the objectives in those statutes from the Clean Air Act to the 
Clean Water Act across TSCA and CERCLA and a host of federal 
statutes. And rule of law matters, because as we act and adopt 
regulation, if we act untethered to a statute it creates 
uncertainty in the marketplace and those that have expectations 
placed upon them don't know how to conduct themselves. And so 
rule of law is not something that is academic. It is not 
something that is just legal. It truly impacts how we do our 
job at the Agency.
    And secondly, I have tried to emphasize process. Process 
matters as well. It is this body that has required federal 
agencies, executive agencies to go through the EPA to adopt 
rules that are consistent with comment and informed discussions 
that take place over a period of time.
    Where a proposed rule takes place comment occurs, we 
respond to that comment on the record, and then finalize our 
decisions based upon the comments provided. Just one example, 
during the Waters of the United States rule of 2015 over a 
million comments were submitted to the Agency as that 
definition was adopted, and the Agency took the very, very 
important step of responding to each of those to make a 
decision. The same needs to take place today. And so we have 
incorporated changes at the Agency to respect process to make 
sure that citizens' concerns across the country are heard and 
that we respond on the record to those concerns.
    And then, thirdly, and some of you have mentioned this in 
your opening comments as well, is a commitment to federalism. 
Federalism is something, again is not just a legal or academic 
concept, it is something that you have put into statutes, many 
statutes. You have prescribed authority to states across this 
country, because when we work together with states to achieve 
better outcomes with air and water quality it serves the 
citizens of your respective states.
    And I will say to you, 2 days after being sworn in as EPA 
Administrator, I had 18 to 20 governors in my office on a 
Sunday--Democrats and Republicans--Governor Dayton of Minnesota 
to Governor Herbert to Utah. And we talked about a host of 
issues on air quality and water quality and Superfund and we 
began a journey that started in February.
    And I have visited almost 30 states since that time, 
visiting with governors and respected DEQs to advance the 
issues of the respective states. And the reason that is 
important is because the issues in Utah, the second most driest 
state in the country, are different than the water issues in 
Minnesota. And so we must work with our partners at the state 
level to achieve better outcomes and that has been a focus 
along with these issues of process and rule of law.
    I want you to know this dialogue that begins today is 
important to me. I have met with some of you individually. I 
have met with many of your colleagues across the rotunda in the 
Senate, both Democrats and Republicans, on issues that impact 
their states. I know that these are very difficult issues that 
we handle at the Agency. I seek to engage in a civil discourse 
with you. I seek to have a thoughtful discussion about how we 
can advance the objectives of what you have passed in these 
statutes and I appreciate the opportunity. And I do hope, 
Ranking Member Pallone, that we can begin a good discussion 
going forward into 2018 on these issues and look forward to the 
questions today. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Pruitt follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
    
    Mr. Shimkus. The gentleman yields back his time.
    I also want to note that a full statement of the 
administrator has been placed into the record. I failed to say 
that earlier. And then I would like to recognize myself for 5 
minutes to start the round of questioning. Again thank you for 
being here.
    At a recent Oversight Subcommittee hearing, EPA's Office of 
Inspector General and the Government Accountability Office 
testified that EPA cannot ensure that it has the right people 
in the right places with the right skills and competencies to 
accomplish its mission. According to the Inspector General, EPA 
offices would probably achieve better results if they knew more 
precisely what the requirements were and what kind of people it 
needs to address them.
    In addition, EPA has not conducted a workload analysis in 
over 20 years. It seems to me that a back to basics agenda for 
your agency must include this type of analysis to make sure the 
Agency is operating optimally. Can you assure me that you 
intend to perform this workforce analysis?
    Mr. Pruitt. Yes. We are actually engaged in that process 
now. There is a gentleman by the name of Henry Darwin that is 
the CEO at the Agency. He worked for Governor Ducey in the 
state of Arizona. We are actually partnering with Toyota to 
begin a Lean process at the Agency to evaluate management 
practices. The Agency for many years, and this is something 
that I found surprising, has not measured outcomes 
consistently. We are actually creating a dashboard of 
monitoring in air quality and water quality, Superfund 
remediation across the full spectrum of our responsibilities to 
measure progress in each of those areas on a weekly and monthly 
basis.
    And that has been incorporated into the program offices at 
the EPA, but it is also being incorporated in the regions 
across the country and that is one thing that I will share with 
you that I think has been very challenging as I have taken over 
this position. We have ten regions across the country, as you 
know, from San Francisco to Atlanta, Chicago, Boston, and there 
is a great deal of inconsistency with respect to permitting, 
compliance and assistance, enforcement in these issues with 
respect to how we administer the statutes.
    And we need, I think, a more coordinated, collaborative 
process to ensure that we don't have different approaches in 
Region 8 in Denver versus Region 3 in Philadelphia, so that 
process is ongoing, Mr. Chairman. It is a very important 
process. And I think a performance based, metric based approach 
to these program offices that we are engaged in is so, so 
important because it enlivens, I think empowers employees.
    You mentioned, Ranking Member Pallone, the career staff at 
the Agency. I will say to you that as we have engaged in our 
Superfund focus I have had career employees come up to me and 
say thank you for awakening areas that have been dormant for a 
little while and they are very thankful for the focus that we 
have placed on some of those core missions. And the measurement 
and metrics that we are incorporating going forward is a part 
of this that you referenced, Mr. Chairman.
    Mr. Shimkus. Thank you very much. That is important to me. 
One of the reasons why I care so much about the workforce issue 
is the implementation of the Toxic Substance Control Act. In 
particular, I want to comment to the new chemicals. Since the 
law's enactment, the Agency has needed to reassign staff from 
other offices to address a sizeable backlog in the new chemical 
application.
    Your team helped clear out substantially the backlog, but I 
fear as soon as the borrowed EPA workers go back to their 
regular jobs backlogs will come back to be the norm of the 
operation. What assurances can you give me that the new 
chemical applications will stay on a schedule for the future?
    Mr. Pruitt. Well, we had many, and I want to commend 
Congress on the good work that was done in updating TSCA. I 
mean that was a decade in the making and for you to do that was 
a very important thing for our office. There were deadlines 
that you put in that statute, as an example, rules that were 
supposed to come out by June of this year. I made a commitment 
during the confirmation process to meet those deadlines and we 
in fact did those rules under TSCA.
    The other area that you cite, Mr. Chairman, was the 
backlog. As you know, the changes you made in the TSCA statute 
required that before chemicals entered the flow of commerce our 
agency had to affirm or approve those chemicals. And there was 
a backlog of roughly 700 of those chemicals that were at the 
office before we arrived and we did actually clear that backlog 
out by July by dedicating resources there. It is a commitment 
going forward that we do that timely. We are adopting rules now 
to ensure that the process is defined so that folks know what 
is expected to meet the deadlines going forward.
    Mr. Shimkus. Let me cut down my last question to just a 
simple question on what is the--so we talk West Lake, this is 
parochial, West Lake in the St. Louis metropolitan area. Are 
you on track to issue the Record of Decision and can you give 
us a sense of timing?
    Mr. Pruitt. Yes, we are, Mr. Chairman. We are going to--we 
should be able to announce a decision in the month of January. 
There is proposals that I am looking at this month to make a 
decision on West Lake. It has been a long time coming, 
specifically 27 years. It is a very important issue to the 
people of St. Louis.
    For those of you who don't know on the committee, 8,000 
tons of uranium comingled with 38,000 tons of solid waste 
dispersed over a very large geographical area, buried about 80 
feet deep, and it has taken the Agency 27 years to make a 
decision on whether to excavate or cap the site. That is 
unacceptable and the decision is coming in the month of 
January.
    Mr. Shimkus. Thank you very much.
    Let me now turn to the ranking member, Mr. Tonko, for 5 
minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    And again welcome, Administrator.
    Mr. Pruitt. Thank you.
    Mr. Tonko. During your confirmation hearing you said that 
you ``have no firsthand knowledge'' of the EPA's Scientific 
Integrity Policy. However, you did commit to reviewing the 
policy and following federal guidance regarding scientific 
integrity. Now that you have had some time at the Agency, have 
you reviewed the EPA's Scientific Integrity Policy?
    Mr. Pruitt. Yes. We have reviewed that and implemented it 
at the Agency.
    Mr. Tonko. So have you reaffirmed the Scientific Integrity 
Policy to scientists as well as political appointees at EPA?
    Mr. Pruitt. It is a matter of priority to make sure that we 
have a scientific review of rules at the Agency that are 
objective, transparent, and peer-reviewed, and that is a 
commitment that we are enforcing at the Agency, Mr. Ranking 
Member.
    Mr. Tonko. OK. Thank you, sir. And an essential component 
of scientific integrity is strong safeguards against conflicts 
of interest. Have you required recusals among your staff, 
including yourself, when serious conflicts of interest occur?
    Mr. Pruitt. Absolutely. We have done that and we will 
continue to do that. And that is one of the areas that has been 
mischaracterized with respect to some of these advisory boards.
    Mr. Tonko. OK. Thank you, sir. I only have 5 minutes, so if 
I could move along. I have been very concerned by changes to 
EPA's Science Advisory Board. These concerns are shared by the 
scientific community. Mr. Chair, I would like to enter this 
letter signed by over 1,000 scientists into the record as well 
as the letter from the American Geophysical Union which 
represents more than 60,000 scientists.
    Mr. Shimkus. Yes, I am sure we will. Let me make sure my 
staff sees it and then we will.
    Mr. Tonko. OK. Thank you, Mr. Chair.
    Administrator Pruitt, do you believe scientists are a 
special interest group?
    Mr. Pruitt. I am sure I don't understand the question, 
Ranking Member Tonko.
    Mr. Tonko. Well, are they a fundamental contribution to the 
Agency or seen as a special interest?
    Mr. Pruitt. Look, when we engage in rulemaking at the 
Agency we build a record. And scientists at the Agency, whether 
it is in the chemical shop, the air program office, it is 
important that we hear from our scientists internal to the 
Agency----
    Mr. Tonko. Thank you.
    Mr. Pruitt [continuing]. But also those advisory committees 
in building the record and that is a point of emphasis, 
absolutely.
    Mr. Tonko. Thank you. Do you believe scientists that 
receive EPA grant money are less qualified to give technical 
advice to EPA than states or industry which may also have a 
financial relationship with the Agency?
    Mr. Pruitt. Well, I believe that these advisory committees 
as you know them are independent advisory committees to the 
Agency to equip us in making informed decisions about the 
efficacy of rules that we adopt. And these advisory committees, 
Ranking Member Tonko----
    Mr. Tonko. It is----
    Mr. Pruitt. May I finish?
    Mr. Tonko. Yes.
    Mr. Pruitt. The advisory committees----
    Mr. Tonko. If you could just answer the question though 
too.
    Mr. Pruitt. I am.
    Mr. Tonko. OK.
    Mr. Pruitt. These advisory committees had scientists 
serving in an independent capacity. Twenty of them made up 
three of the committees that have received $77 million from the 
Agency in grants. That causes a perception or an appearance of 
a lack of independence in advising the Agency on a host of 
issues. And we went to those scientists and advised them that 
they could continue serving on these advisory committees or 
receive the grants but they could not do both, to ensure the 
independence of the counsel they were providing to us in the 
rulemaking process.
    Mr. Tonko. Administrator, can you provide specific examples 
of a time when an EPA grant recipient on an advisory committee 
provided conflicted advice?
    Mr. Pruitt. I can say to you that as a grantee, we the 
grantor, Ranking Member, and we have an ongoing obligation to 
oversee those grants, that creates an appearance of a lack of 
independence and that was addressed with the policy that we 
instituted. And we can provide you examples, many examples of 
scientists who received grants over a period of time that were 
substantial and it called into question that independence and 
we addressed that to the policy that we implemented.
    Mr. Tonko. At the same time, does it make sense to ignore 
the advice of the very scientists that EPA determines are 
worthiest of grant funding?
    Mr. Pruitt. Well, we are not in fact. We simply said to 
those individuals that they could continue receiving the grants 
and advise the Agency in the counseling role or receive the 
grants and continue providing that authority we granted them to 
provide substance to the Agency going forward.
    Mr. Tonko. I would just hope that they would be seen as a 
very reliable source. EPA's actions over the past year have led 
many people, myself included, to conclude that EPA's current 
political leadership has been dismissing the role of science in 
its decision making. It appears that independent and Agency 
scientists' recommendations are being ignored for the benefit 
of industry. It happens with chlorpyrifos, it happened with the 
Clean Power Plan, and it appears to be happening with TSCA. In 
many cases, scientific data are even being removed from EPA's 
website. This is incredibly concerning.
    Will you commit to making scientific information, including 
information about climate change, prominently available on 
EPA's website?
    Mr. Pruitt. Science is essential to our NO<INF>x</INF> 
program in review of those pollutants. It is essential as we 
make decisions on Superfund sites. It is essential as we review 
pesticides under statutory authority. It will remain central 
and core to what we do and is in fact central and core to what 
we are doing presently.
    Mr. Shimkus. The gentleman's time has expired. The chair 
now recognizes the Chairman of the full committee, Mr. Walden, 
for 5 minutes.
    Mr. Walden. I thank the gentleman.
    And again, Administrator Pruitt, thank you for being here 
and thank you for coming back later this afternoon when the 
President concludes his meeting with you.
    To the Portland Superfund site as you know that was 
declared in 2000, 17 years later they finally have a Record of 
Decision. One of the concerns I have heard from folks that are 
involved in that is that there isn't the personnel in the 
Portland area----
    Mr. Pruitt. I am sorry. I didn't hear, Chairman.
    Mr. Walden. There isn't the personnel in the Portland area 
to fully implement the program, you have a lot of people up in 
Seattle. And I just draw that to your attention they are 
concerned about that and urge that you dedicate adequate 
resources to the Portland site so they can get going on that. 
And I know you are very committed to that whole cleanup 
operation.
    One of the other issues that has come up is the Clean Air 
Act has the exceptional events exception process. We have had 
all these wildfires. My gosh, they have these horrible 
wildfires again in California. We had them in the Northwest. It 
has been subject of some of our hearings here about how that 
process works today, the amount of time, money it takes to go 
through it to get an exception.
    What can you do to ensure a more timely, cost effective EPA 
process on exceptional event determinations?
    Mr. Pruitt. There is actually quite a bit of work, Mr. 
Chairman, with respect to ozone and exceptional events going 
on. Bill Wehrum is our only confirmed AA at this point for air. 
Bill is leading a task force review of both NSR but also these 
issues around background ozone, but in addition to exceptional 
events. We need to provide clarity in that area so that we know 
how these rules will be enforced and applied going forward. 
That clarity is not there presently and that is a focus of the 
Agency presently as we go into 2018.
    Mr. Walden. We would like to work with you on that. It is 
important to a number of members on the committee. By the way, 
you said he is confirmed. How many confirmations are you still 
waiting for, for staff? How many do you have, confirmed people 
in place, and how many are you waiting for do you know?
    Mr. Pruitt. We have one.
    Mr. Walden. One what?
    Mr. Pruitt. One confirmed.
    Mr. Walden. Besides you?
    Mr. Pruitt. That is correct.
    Mr. Walden. And how many would be pending?
    Mr. Pruitt. Well, we have deputy, general counsel, all the 
program offices. We have CFO, we have several that need to be 
confirmed and hopefully that will occur soon.
    Mr. Walden. Wow. EPA air emissions data show how air 
pollutants have been steadily decreasing in the United States 
over time. Since 1990, carbon monoxide concentrations are down 
77 percent, lead down 99 percent, nitrogen dioxide 54 percent, 
ozone down 22 percent, coarse particulate matter down 39 
percent, fine particulate matter down 37, sulfur dioxide down 
81 percent.
    What role have advanced technologies such as hydraulic 
fracturing played at decreasing the nation's air emissions?
    Mr. Pruitt. Well, I think it is substantial. You know, many 
don't know that we are at pre-1994 levels today with respect to 
our CO<INF>2</INF> footprint. We have reduced our 
CO<INF>2</INF> levels from 2000 to 2014 by almost 20 percent 
largely through innovation and technology. We have achieved a 
lot through mobile sources under the Clean Air Act for 
reduction of CO<INF>2</INF>, but with respect to stationary 
sources and other forms it has been primarily through 
innovation and technology.
    But you do highlight something, Mr. Chairman, that I want 
to say. We need to celebrate progress that we have made as a 
country with respect to our air quality. We have reduced those 
pollutants that we regulate under the Clean Air Act by over 65 
percent. That is a good thing and we need to celebrate that. 
And that has been because of the actions you have taken here 
and that has also been because of the actions we have taken at 
the EPA.
    But it has also been because of the actions taken by the 
private sector in states across the country. It is a 
collaborative process that has achieved good outcomes with 
respect to air quality. We have much work to be done. Forty 
percent of the country live in areas that don't meet air 
quality standards, about 120 million people. We need to focus 
upon that and it is an important metric that we are measuring 
at the Agency.
    But we do need to celebrate the progress we have made and 
that has been through innovation and technology in a very, very 
important way.
    Mr. Walden. Thank you, sir. In addition, our committee has 
submitted, I think, at least five letters to your agency 
seeking records and documents and information. In the past 
administration it was very, very difficult to get responses to 
many of our requests. We appreciate the fact that we have 
received more than a thousand pages of documents on grant 
management issues. I also want to say we appreciate the 
numerous bipartisan briefings you and your team have provided 
especially in light of the hurricanes that took place. We do 
appreciate that.
    So know that when we send a letter we want a response and 
we want it--you hear it from both sides I think that we expect 
all the agencies to respond to our requests so we can do our 
oversight work. And with that, Mr. Chairman, I would yield back 
the balance of my time.
    Mr. Shimkus. The gentleman yields back his time. The 
minority's request for those letters to be accepted into the 
record, without objection, will be permitted.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. And with that the chair now recognizes the 
ranking member of the full committee, Mr. Pallone from New 
Jersey, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    And I wanted to talk to you about, Mr. Administrator, about 
TSCA, because unfortunately under your leadership I think EPA 
is retreating from the important task of TSCA in regulating 
toxic chemicals. The framework rules for implementation of TSCA 
published in June are not consistent with the law in very 
dangerous and worrisome ways, in my opinion, and I think this 
is because Nancy Beck, a former lobbyist for the chemical 
industry, was allowed to completely rewrite the rules in 
flagrant violation of ethics rules.
    And I have written to you twice regarding Nancy Beck's 
involvement in these rulemakings, but I have not gotten a 
response. So let me ask you a few questions and I would like 
you to just answer yes or no. Did you ask Nancy Beck to recuse 
herself from the framework rulemakings?
    Mr. Pruitt. Nancy Beck like every employee at the Agency--
--
    Mr. Pallone. Just yes or no. I don't have a lot of time.
    Mr. Pruitt. Ranking Member Pallone, I need the ability to 
answer your question and I will answer your question. Every----
    Mr. Pallone. Well, I just, can you say yes or no before you 
proceed with the answer?
    Mr. Pruitt. Nancy Beck went through ethics review by the 
ethics official at the Agency.
    Mr. Pallone. So you did not recuse her. So let me ask you--
--
    Mr. Pruitt. Mr. Ranking Member Pallone----
    Mr. Pallone. Well, you didn't recuse her.
    Mr. Pruitt. That is something that we have career----
    Mr. Shimkus. Let's be respectful and let's let people 
answer.
    Mr. Pallone. I understand but----
    Mr. Shimkus. But let's answer shortly and concisely so the 
Ranking Member can----
    Mr. Pruitt. We have career employees at the EPA that are 
ethics officials that review those issues.
    Mr. Pallone. OK, look. Mr. Chairman, he refuses to answer 
the question. He obviously has not recused her, so I want to 
move on. I have asked you for copies of all of Nancy Beck's 
ethics agreements and waivers. Will you provide those to the 
committee, yes or no?
    Mr. Pruitt. Absolutely.
    Mr. Pallone. Thank you. The framework rules had already 
been completed and sent to various internal EPA offices for 
concurrence before Dr. Beck started at the Agency. We 
understand that they were completely rewritten after she 
started at EPA, by her. Now I asked you for a document tracking 
the changes she made to the rules. Will you provide that to the 
committee, yes or no?
    Mr. Pruitt. We will provide the information that is 
requested and make sure it is available.
    Mr. Pallone. Thank you. Thank you, that is fine. I would 
like to quickly focus on one specific chemical undergoing 
review right now under the TSCA.
    Mr. Pruitt. I am sorry. I didn't hear.
    Mr. Pallone. I am sorry. I would like to quickly focus on 
one specific chemical undergoing review right now under TSCA 
and that is asbestos. Unfortunately, your EPA's work on 
asbestos, in my opinion, clearly illustrates the problems in 
how you are implementing the act.
    TSCA requires EPA to look at the intended conditions of use 
for a chemical defined as the conditions under which a chemical 
is manufactured, processed, distributed, used, and disposed of. 
But in the scoping document for the asbestos risk assessment, 
your EPA has announced that you will look only at manufacturing 
processing and distribution and you will completely ignore 
asbestos that is being used and disposed of in this country.
    Let me just explain. The use and disposal of asbestos is 
the main source of risk from asbestos. If you ignore those 
things you will produce a risk assessment that fails to capture 
the risk to workers and ordinary Americans and, in my opinion, 
will not be scientifically valid and will not be protective of 
public health.
    So my question really is this. Do you think you can just 
ignore certain things that are inconvenient for the industry? 
In other words you are saying we will look at the manufacturing 
process, distribution, but we won't be looking at how it is 
used and disposed of in this country. Do you understand what I 
am asking?
    Mr. Pruitt. Yes, absolutely. And I think you raise a very 
valid concern. In fact, I had a conversation last week about 
this issue with the chemical office. I think you raise a very, 
very meaningful concern.
    Mr. Pallone. All right. So hopefully, we will see action on 
looking at the use and disposal. Is that correct?
    Mr. Pruitt. That is a very important factor that we need to 
consider and that is something that I have already raised with 
the office that is overseeing this.
    Mr. Pallone. All right. Well, I appreciate that. Thank you, 
Mr. Pruitt. The other concern I have is that now that Brazil 
has banned asbestos mining all of the asbestos that is going to 
continue to flow into the United States will come from Russia, 
OK, because Brazil has banned it. So again my concern is that 
the EPA is basically protecting Russian mining at the expense, 
I think, of American workers by saying that asbestos is going 
to continue to flow into the country but it can't come anymore 
from Brazil. So would you just respond to that the fact that 
right now Russian mining is the only source for it and we 
continue to allow it.
    Mr. Pruitt. Well, I think that as you have indicated, this 
factor that hasn't been considered up until this point that is 
something we are going to do going forward and I think that is 
very important. I am not really familiar with the import issue 
that you have raised. If there is an impact we can have on that 
I look forward to the discussion on how better we can influence 
that. I don't know what role we would play in that regard, but 
look forward to that discussion.
    Mr. Pallone. Well, I appreciate again your willingness to 
look at that, Mr. Administrator. Thank you.
     Mr. Pruitt. I think the primary issue is what you raised 
earlier which is the disposal issue I think is very valid and 
something we need to look at going forward.
    Mr. Pallone. All right, thank you.
    Mr. Chairman, can I just ask unanimous consent to put into 
the record a letter from Linda Reinstein, who is executive 
director of the Asbestos Disease Awareness Organization, and a 
letter from the Safer Chemicals, Healthy Families coalition.
    Mr. Shimkus. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Pallone. Thank you.
    Mr. Shimkus. The gentleman's time has expired. The chair 
now recognizes the former chairman of the full committee, Mr. 
Barton, for 5 minutes.
    Mr. Barton. Thank you, Chairman Shimkus. I want to give 
Ranking Member Tonko A+ for the line of the day so far, his 
Sooner comment. That was----
    Mr. Pruitt. That was very good. That was very good.
    Mr. Barton. Excellent. Mr. Administrator, at the very 
beginning of the Obama administration there had been a Supreme 
Court case, Massachusetts v. EPA, that said the Clean Air Act 
amendments didn't specifically say that CO<INF>2</INF> was or 
was not a pollutant, therefore it might be found to be a 
pollutant. As soon as President Obama came into office he asked 
the EPA for a findings document.
    This finding document was rushed through very quickly 
within about, I want to say, 60 days and surprise-surprise said 
that they found that CO<INF>2</INF> was a pollutant. There was 
a career analyst at EPA that took exception to that and wrote a 
scathing report that ripped it apart. That analyst was 
discouraged from bringing his report forward and ultimately 
forced to retire.
    Are you aware of that finding document and, if so, do you 
have any plans to revisit it?
    Mr. Pruitt. Well, I am aware of the Mass. v. EPA decision 
as you indicated that occurred in 2007. There was work actually 
being done in 2008 by the Bush administration that was left to 
the Obama administration, and you are correct, Congressman, 
that the work done in 2009 was accelerated by the Agency.
    In fact, there was something done in 2009 that in my 
estimation has never been done since and not done before that 
event, where they took work from the U.N. IPCC and transported 
it to the Agency and adopted that as the core of the finding. 
So there was a breach of process that occurred in 2009 that 
many believe was not handled the proper way. But the Mass. v. 
EPA decision and the processes that followed involved both the 
Bush and the Obama administrations and that process was again 
in 2009, I think, short shrifted.
    Mr. Barton. I would encourage you to go back and revisit 
the finding document and get the report that this career 
analyst put forward. If you can't find it let me know, because 
I have it and it is very damning on what they found.
    My second question, I have been told that you plan at some 
point in time to set up a red team-blue team review of pending 
regulations where you have scientists basically engage in an 
internal debate pro the regulation, con the regulation so that 
you really get a balanced scientific understanding of the 
pending regulation. Do you plan to use a red team-blue team 
approach and if so when might we expect that to start?
    Mr. Pruitt. That is an ongoing review internally, 
Congressman. It is something that I hope to be able to do and 
announce sometime beginning part of next year at the latest. 
But that is something we have been working on for the last 
several months in trying to put that together and that would be 
a process that would be focused upon an objective, transparent, 
real-time review of questions and answers around this issue of 
CO<INF>2</INF>.
    I think one of the most important things we can do for the 
American people is provide that type of discussion, because it 
hasn't happened at the Agency. As I indicated, the Agency 
borrowed the work product of a third party and we need to 
ensure that that discussion occurs and it occurs in a way that 
the American people know that objective, transparent review is 
taking place. And so that red team-blue team concept is 
something that is ongoing as far as an evaluation and we may be 
able to get there as early as January of next year.
    Mr. Barton. Good. I would commend you on that. And I think 
you know under the Obama administration EPA became more than 
just an enforcement agency. It more and more began to intervene 
in the policy arena, in many cases going further than at least 
those of us on the Republican side felt that they should go.
    Do you believe that before you set a standard you 
absolutely ought to check with the Department of Energy and the 
Federal Energy Regulatory Commission so that you really get a 
balanced analysis of what is going on, and do you feel that as 
we take a look at the reauthorization of your agency and the 
Department of Energy that it might be necessary to try to 
rebalance that equation between the energy policy arena and the 
environmental enforcement arena?
    Mr. Pruitt. Well, as I indicated in my opening comments, 
Congressman, it is important that as we do our work at the 
Agency that we only do what Congress permits and authorizes us 
to do. I think the challenges over the last several years--it 
was mentioned in some of the opening comments about the Clean 
Power Plan. It was unprecedented for the U.S. Supreme Court to 
enter a stay against the Clean Power Plan, and as you know you 
don't get a stay of enforcement on a rule unless there is a 
likelihood of success on the merits later.
    And so there was an understanding that the steps taken by 
the previous administration, building blocks 1, 2, 3 and 4, 
there was a reimagining of authority that took place under the 
Clean Air Act that caused a lot of confusion on what was 
authorized and what wasn't. That is not the proper way to 
approach these issues and we are addressing that at the Agency 
in ensuring that we hew to rule of law in these processes to 
make sure that there is confidence in the rules that we adopt 
going forward.
    Mr. Barton. My time has expired. I thank you, 
Administrator, for your answers.
    Mr. Shimkus. All right. And the gentleman yields back. An 
announcement for my colleagues, we are going to go to 
Congressman Ruiz. He will have the last 5-minute block of 
questions before we allow the administrator to get downtown, 
and then I will make an announcement about getting back 
promptly at 2:00 for the administrator and for us to follow up. 
So with that the chair now recognizes the gentleman from 
California, Mr. Ruiz, for 5 minutes.
    Mr. Ruiz. Administrator Pruitt, welcome to the committee. I 
am Dr. Raul Ruiz and it is a pleasure to meet you. I want to 
talk about particle pollution. Fine particle pollution is 
harmful to human health and can be deadly even at the very low 
concentrations. Hundreds of peer reviewed studies have found 
that these microscopic particles can reach the deepest regions 
of the lungs and actually enter the bloodstream. Exposure to 
fine particles is associated with premature death, asthma 
attacks, chronic bronchitis, decreased lung function, and 
respiratory disease.
    As an emergency medicine physician from the Inland Empire 
in California, which has some of the country's highest levels 
of particle pollution, I have seen firsthand the impacts of 
exposure to dangerous levels of fine particle pollution and let 
me tell you it is not nice. It is not a pleasant experience to 
treat kids who come in with asthma because of a bad air 
particle pollution day.
    The scientific consensus long recognized by the EPA during 
both Republican and Democratic administrations is that fine 
particle pollution is a non-threshold pollutant, meaning that 
there is no level of fine particle pollution exposure below 
which no harm occurs, including premature death. So 
Administrator Pruitt, do you agree that fine particle pollution 
is a non-threshold pollutant?
    Mr. Pruitt. Yes. And I would say to you that particulate 
matter under the NO<INF>x</INF> program, as you know we can't 
engage in a cost-benefit analysis there. It is all about 
health.
    Mr. Ruiz. Yes.
     Mr. Pruitt. And it is a very important role that we play 
in those criteria pollutants under the NO<INF>x</INF> program.
    Mr. Ruiz. Thank you. Administrator Pruitt, were you aware 
that the Bush administration used the health benefits 
associated with reducing this non-threshold pollutant to 
justify their 2003 Clear Skies legislation cosponsored by 
Senator Inhofe?
    Mr. Pruitt. I am familiar with the legislation.
    Mr. Ruiz. Yes, they did.
    Mr. Pruitt. I didn't know about the cosponsoring aspect.
    Mr. Ruiz. They did. All right. And that the Bush 
administration relied on those same health benefits for its 
economic analysis for the 2004 Tier 4 rule to control emissions 
from nonroad diesel engines? That is a good thing.
    Mr. Pruitt. Yes, it is, Congressman.
    Mr. Ruiz. Yes, they did. They relied on that. Isn't it true 
that the Bush EPA agreed that there are no safe thresholds for 
fine particle pollution related health effects including 
premature death in the 2005 Clean Air Interstate Rule?
    Mr. Pruitt. I think you have stated it well, Congressman.
    Mr. Ruiz. They did. The recently confirmed Assistant 
Administrator for Air and Radiation, Mr. William Wehrum, played 
a key role in developing those rules during the Bush 
administration, and Andrew Wheeler, the nominee to be the 
deputy administrator handled the Clear Skies bill when he 
worked for Senator Inhofe.
    Administrator, are Mr. Wehrum and Mr. Wheeler wrong about 
fine particle pollution having no safe level?
    Mr. Pruitt. Wrong about what?
    Mr. Ruiz. That there is no safe level for particle 
pollution, so I don't think they were wrong.
    Mr. Pruitt. I don't think I stated that they were wrong.
    Mr. Ruiz. OK, great. So you agree that----
    Mr. Pruitt. Yes. So I am not entirely sure what your 
question is. That Bill Wehrum is doing a fine job, is focused 
on these issues as is Andy when he is confirmed as deputy and I 
agree with your position that it is a very important criteria 
pollutant that we need to regulate on the NO<INF>x</INF>----
    Mr. Ruiz. Wonderful.
    Mr. Pruitt [continuing]. In a very, very important way.
    Mr. Ruiz. So despite that, this well-established scientific 
reality, your proposed repeal of the Clean Power Plan, EPA 
assumes for the first time that there are safe levels of deadly 
fine particle pollution. That is a concern of mine. Did you 
rely on any new peer-reviewed scientific studies to support 
reversing EPA's position on fine particle pollution?
    Mr. Pruitt. As you know, Congressman, no, we did not base 
that upon--our withdrawal of the Clean Power Plan is largely 
based upon the jurisdictional issues of the Clean Air Act.
    Mr. Ruiz. OK.
    Mr. Pruitt. And all I have to have is a reasonable basis to 
withdraw a rule, a U.S. Supreme Court stay of the Clean Power 
Plan----
    Mr. Ruiz. Well, that is obviously a point of difference 
in----
    Mr. Pruitt. We did not base our withdrawal of the Clean 
Power Plan upon the issues that you have cited.
    Mr. Ruiz. OK. So I do think that the mission of the EPA was 
charged by the people to protect the health and the environment 
of the American people so that everybody, regardless of 
socioeconomic status, can enjoy a healthy environment and 
therefore live their life to full health potential. And this 
Clean Power Plan was part of that mission to make sure that we 
protect the environment so therefore we could protect the 
people's health.
    And there is no reliance on any scientific studies whether 
they were peer-reviewed or non-peer-reviewed, as you just 
admitted, in withdrawing this. This was your interpretation of 
the jurisdictional matter of the EPA which we beg to differ, of 
course, because we are here to protect the American people's 
health.
    Do you believe therefore that it was appropriate to reverse 
the EPA's positions on the deadliness of fine particle 
pollution? Because there is the assumption here that now the 
EPA is saying that there is a threshold for that to happen.
    Mr. Pruitt. We did not reverse it, Congressman. And 
moreover, we are going to be introducing a replacement rule too 
in place of the Clean Power Plan.
    Mr. Ruiz. Before my time has expired----
    Mr. Shimkus. Your time has just expired, but be quick.
    Mr. Ruiz. Let me submit this unanimous consent to place 
this 2012 letter from EPA to Chairman Upton into the record, 
please.
    Mr. Shimkus. Again we will look at it and I am sure we will 
do it.
    Mr. Ruiz. Thank you.
    Mr. Shimkus. And the gentleman's time has expired.
    I want to remind all my members that pursuant to my 
announcement at the start of the hearing, we are recessing now 
so Mr. Pruitt can attend a meeting with the President at the 
White House. Mr. Pruitt will be returning to the committee to 
answer member questions. We will convene at 2322 Rayburn House 
Office Building. This is for people who don't know the 
operations here at 2:00 p.m. sharp, and stay as long it takes 
for every member who is present and wants to ask questions to 
be given their turn to ask questions.
    For our guests in the gallery, your seat here does not 
guarantee your seat when we resume the hearing. Seats will be 
allocated on a first come-first serve basis starting at 1:45. 
Should you wish to join the proceedings in 2322, and it is a 
smaller hearing room, you will need to be in line outside of 
2322. And I apologize for the inconvenience and the committee 
stands in recess.
    [Whereupon, at 11:00 a.m., the subcommittee recessed, to 
reconvene at 2:28 p.m., the same day.]
    Mr. Shimkus. The subcommittee will come to order. When we 
recessed, it was Mr. McKinley's turn to be recognized. So with 
that I want to recognize the gentleman from West Virginia for 5 
minutes.
    Mr. McKinley. Thank you, Mr. Chairman. And thank you, 
Administrator, for coming and participating in this. Over the 
years we had asked your predecessors to come particularly as it 
relates to Section 321(a) to see the impact some of the 
regulations were having in the coal fields and they declined to 
do that.
    But I am particularly appreciative of the fact that a week 
ago or 2 weeks ago the EPA, you sent--other folks came to West 
Virginia to get the impact of what these regulations are 
having, because it is pretty clear in the statute that we have 
to abide by the economic impact. We have to take that into 
consideration when rules and regs are promulgated. They didn't 
do that.
    And I know you and I have had that conversation that you 
want to follow the law very clearly, and I know a federal judge 
has already ruled that the EPA in the past considered them 
discretionary and not mandatory. I think your position I have 
heard from you is that you think that they are mandatory and 
you intend to abide by them. Am I correct on that?
    Mr. Pruitt. Yes, Congressman. And we did in fact as you 
indicated send representatives to West Virginia as part of the 
proposed withdrawal. And I do think it is important that that 
is a rulemaking process. We have talked a little bit this 
morning about the withdrawal of the Clean Power Plan, and as I 
indicated earlier that is primarily jurisdictional as far as 
the basis for that withdrawal.
    But that is a rulemaking process, and so that rulemaking 
process means that we go out and solicit and receive comment 
from across the country. We are not just going to be in West 
Virginia. We are going to be in Gillette, Wyoming soon. We are 
going to be in San Francisco. We are going to be Kansas City. 
There is going to be a crosscurrent of viewpoints with respect 
to this issue and it is important we hear all voices and that 
process is ongoing.
    Mr. McKinley. Well, I think I particularly appreciate the 
fact that you sent people to the coal fields to understand the 
impact of what those regulations were doing when 86,000 coal 
miners lost their job during the Obama administration and no 
one paid attention. No one came to those communities to find 
out what was going to be the impact of another regulation that 
was going to put them out of business.
    But part of the question is have they been able to debrief 
you? What were some of the salient issues? What were the points 
that were raised at the meeting in Charleston?
    Mr. Pruitt. Well, quite a few comments that were offered, 
it was multiple hours of information, and again a crosscurrent 
of information that we are reviewing. And I think that, 
Congressman, you hit on some very important matters with 
respect to the cost of the Clean Power Plan that wasn't taken 
into consideration before and that is something that came out 
in the process in West Virginia.
    Mr. McKinley. I know you have made a commitment. You said 
you are going back to blocking and tackling the fundamentals of 
rulemaking. Is there something that we should be doing here in 
Congress to make sure that we don't revert back to that old way 
of just following the ideology rather than science?
    Mr. Pruitt. Well, I think there are some things we have 
done recently that I think are very important to the process 
that I talked about earlier. For many years the APA, the 
Administrative Procedure Act that governs how we do rulemaking 
has not been really followed as closely as it should. We have 
used guidance as forms of rules at times which I think subverts 
the voices that need to be heard on substantive actions. We 
have engaged in regulation through litigation. We talked about 
a sue and settle practice at the Agency that literally has 
impacted state implementation plans across the country with air 
quality.
    And so there is much that we need to do to ensure that we 
respect that process and make sure that rulemaking is adhered 
to. Excuse me, the APA is adhered to as we are engaged in 
rulemaking.
    Mr. McKinley. Well, in the time--or is there something you 
would suggest, because that has been on the books that they are 
supposed to do that but we saw 8 years where they did not 
follow that. Is there something that we should do to tighten up 
that?
    Mr. Pruitt. Well, I think that anytime an agency, and it is 
not just the EPA it is any agency of the executive branch that 
engages in litigation to change substantive requirements in the 
statute, you know, timelines that Congress sets or taking 
discretionary duties and making it nondiscretionary, as an 
example, that is something that should be dealt with by 
Congress. And I think speaking to that through codification is 
something that could be, I think it would be very helpful.
    Mr. McKinley. OK, thank you. I yield back.
    Mr. Shimkus. The gentleman yields back his time. The chair 
now recognizes the gentleman from California, Mr. Peters, for 5 
minutes.
    Mr. Peters. Thank you, Mr. Chairman. And thank you, Mr. 
Administrator, for being here. I wanted to ask you about the 
methane rule. EPA has an effort to control dangerous methane 
pollution from the oil and gas industry. The common-sense rule 
asks operators to put our natural gas resources to productive 
use rather than wastefully leaking them. I support the rule 
because it will boost energy supplies, reduce air pollution 
including smog, air toxins, greenhouse gases, and the estimated 
benefit of capturing methane emissions from the oil and gas 
industry is $2 billion annually.
    Do you support this rule and if not, without it what would 
you do to reduce wasted natural gas?
    Mr. Pruitt. Congressman, historically, the way the Agency 
has dealt with methane has been part of a VOC approach where 
volatile organic compounds as we have regulated the VOCs 
methane has been part of that bundle. What happened with that 
particular rule is the EPA for the first time pulled methane 
out of the bundle and regulated it separately. We haven't taken 
any action on that as you know as far as the substantive rule 
itself. There are compliance dates that are forthcoming that 
have been extended and that has really been the focus up until 
now.
    But I think there is a meaningful debate, discussions that 
should occur about whether the rule should be focused on a 
bundle approach, a VOC approach, or whether methane should be 
pulled out. As you know, methane is very valuable. Companies 
don't like to flare methane because it can be captured and used 
in other ways and it is very marketable, if you will. And so I 
think having a rule in place that incentivizes that and ensures 
that we approach it pursuant to the statute is something we 
should look at.
    Mr. Peters. OK. I think you and Secretary Perry have both 
made appearances on CNBC and on March 9th you said that carbon 
dioxide is not a primary driver contributing to recent climate 
change, and that said differently you said CO<INF>2</INF> is 
not the only contributor to climate change. Do you agree that 
methane, nitrous oxide, and other greenhouse gases are air 
pollutants?
    Mr. Pruitt. Absolutely. Absolutely, and are more potent, 
actually, than CO<INF>2</INF>.
    Mr. Peters. Right, so----
    Mr. Pruitt. Methane is more potent than CO<INF>2</INF> as 
you know in that regard.
    Mr. Peters. So I have to say it seems to me, I knew you 
have emphasized the importance of points of process before, but 
if the object is to reduce methane, nitrous oxide, and other 
greenhouse gases what would be the strategy whether as part of 
a bundle or is not part of a bundle, how do you think we should 
go about controlling and reducing those greenhouse----
    Mr. Pruitt. I think that distinction matters though, 
Congressman.
    Mr. Peters. OK.
    Mr. Pruitt. I think as we look at the statutory framework 
and how methane should be regulated the question whether it 
should be part of the bundle is a significant question and so 
that is what we are evaluating. Again the focus in the first 10 
months has been on those compliance dates, and as you know the 
rule is in effect presently and that has been the primary 
focus. As we go forward, the discussion and the focus will be 
on whether it needs to be a part of the bundle or not.
    Mr. Peters. So I understand the procedural point you make 
about whether it is part of the bundle, but whichever avenue we 
take, whether it is part of the bundle or not, how would we go 
about reducing the emissions of methane gas?
    Mr. Pruitt. Well, you look at the wellhead, you speak to 
companies with respect to the flaring practices that have gone 
on historically, and there are best management practices and 
best practices that can be deployed by companies to ensure 
again there is not an incentive for companies to waste methane. 
It is something that can be used and it is very valuable. We 
need to recognize that and encourage and incentivize that.
    Mr. Peters. Right. And I think one of the things that we 
have noticed is it has many benefits and the price of natural 
gas has gone down, so perhaps the incentive to lose that cheap 
gas isn't as great as it might be to actually force the control 
of it. But you mentioned a couple of things like looking at the 
wellhead and so forth. Substantively, do you think that what is 
the methane rule is the right kind of approach to deal with 
that?
    Mr. Pruitt. I think, Congressman, it is probably best that 
in the rulemaking process it is important that I don't prejudge 
outcomes and I think that what will be important is taking 
comment on those issues as we go forward.
    Mr. Peters. Do you intend to start from zero or do you 
intend to put out the methane rule for additional comment? How 
do you intend to land this plane?
    Mr. Pruitt. It is yet to be determined.
    Mr. Peters. All right. Well, I would say I think we have 
made a lot of progress on it. I think that there is a lot of 
understanding within the industry that natural gas can be a 
better burning fuel than some fuels we use, but you have to 
control methane to really get the benefit out of it from a 
climate change standpoint and that is kind of where we should 
be.
    Mr. Pruitt. Thanks, Congressman.
    Mr. Peters. Thank you.
    Mr. Peters. The gentleman yields back his time. The chair 
now recognizes the gentleman from Texas, Mr. Olson, for 5 
minutes.
    Mr. Olson. I thank the chair. And welcome, Administrator 
Pruitt. My congressional district, Texas 22, may be the biggest 
one in America. Right now we have 850,000 people and growing 
quickly. The huge majority of these people wanted me to tell 
you thank you, thank you, thank you for making EPA what it 
should have been, an agency in D.C. that works with local 
governments, local private sector to get clear air and cleaner 
water. Thank you for that.
    They are frustrated by the last 8 years. The administration 
used the EPA that became a combatant that actually kept us from 
getting cleaner air and cleaner water, and they are thrilled to 
have you there. They got tired of things we can't achieve as 
human beings, technology that is not available and yet it is 
demanded. They are tired of arranging lawsuits to sue and 
settle and that is now gone also. Thank you for that.
    There are many frustrations back home, one example, the 
RFS. As you know, sir, I have had long and serious concerns 
with the RFS. I hope this committee will act to take care of 
this matter quickly. But in the meantime, until we act, guess 
what, you are on point and you have a lot of leeway going 
forward.
    My question is how have the concerns about the ethanol 
blend wall, or even RIN prices, figured in your decisions about 
the 2018 targets?
    Mr. Pruitt. Well, a couple things. Number one, I was very, 
very appreciative to the Agency of the work that was done to 
meet the deadline. Historically, as you know the November 30th 
deadline to publish those volume obligations has been missed 
and it creates uncertainty. People don't know what is expected. 
It affects capital outlay, et cetera, and so it was very 
important to meet that November 30th deadline and we did in 
fact do that.
    As we have looked at volume obligations with respect to 
conventional cellulosic, bio-based diesel, the advanced 
categories, the focus is try, we try to focus our efforts on 
objective criteria whether it is production levels and/or 
demand. As an example, the most we have ever produced with 
cellulosic is about 180 to 190 million gallons domestically, 
yet the volume obligations, historically, by the agencies have 
been set around 300 million or so.
    So when you set those levels artificially high it creates 
other problems elsewhere and so I think in the administration 
of that statute it is very important upon our agency to be as 
objective as possible at setting those volume obligations to 
reflect true production levels.
    Bio-based diesel, the capacity is about 2.6 billion I have 
heard, but the production levels have not eclipsed 2.1 billion. 
We imported about 700 million gallons from last year to meet 
that level, so there are a lot of questions obviously around 
the administration of RFS. Please know that we are committed to 
doing it pursuant to that statutory framework that you have 
established, but at the same time that statutory framework is 
very challenging because the levels that have been set by 
statute have never been met. And so we have got a lot of 
challenge there.
    Mr. Olson. And as you know, Senator Barrasso asked EPA to 
complete a long overdue study on the environmental impact of 
the RFS. That is something that is required by the Clean Air 
Act. Any update on the progress of this study?
    Mr. Pruitt. Yes. Actually, I have been briefed on that 
within the last couple weeks and we have begun the process to 
provide that study to Congress. That is something that is 
statutory and something that needs to be done.
    Mr. Olson. Thank you. And also talk about Hurricane----
    Mr. Pruitt. I am sorry. Say it again?
    Mr. Olson. Hurricane Harvey, sir----
    Mr. Pruitt. Yes, yes.
    Mr. Olson [continuing]. Hit my district hard. As you know, 
hit us twice basically, the most expensive hurricane in 
American history. Talking with Dr. Bryan Shaw, who heads up our 
Texas Commission on Environmental Quality, he is quite pleased 
with the working together with EPA during that storm. You guys 
deployed all over the Gulf Coast, on the coast, inland, and got 
acting pretty quickly.
    One concern is having money to go forward and one solution 
may be what is called the State Revolving Fund. Can that be 
used to address repairs in Texas? It is under your control and 
will you do that?
    Mr. Pruitt. Well, SRFs as you know have been used in a very 
good way to address infrastructure challenges at the state 
level and I think it is something that Congress ought to 
consider.
    Again I want to highlight something though with respect to 
Hurricane Harvey and Hurricane Irma and then what is going on 
in Puerto Rico. We embedded officials from EPA with local towns 
and cities across Texas, Florida as the storms approached in 
order to have real-time decisions made on the threats that it 
posed to drinking water, Superfund sites, chemical facilities, 
and the rest, and it was truly an example of federalism in 
action between the state, local towns and cities, and the U.S. 
Government working to address those issues. So I am very, very 
thankful for the leadership of Region 6, which is in Dallas and 
then obviously Region 4 as it relates to Florida. It was good 
work by their folks, employees, but also the folks at the state 
level.
    Mr. Olson. And speaking for Dr. Shaw, he would say great 
teamwork with the EPA. Thank you, thank you. One final thank 
you, the San Jacinto Waste Pits.
    Mr. Pruitt. Yes.
    Mr. Olson. Harvey knocked them loose. All this benzene came 
out.
    Mr. Pruitt. Yes.
    Mr. Olson. You stepped up and said we will stop this 
forever. So thank you for that.
    Mr. Pruitt. I think it is important, Mr. Chairman, and this 
is an example. We talked about the Superfund initiative at the 
Agency. San Jacinto is a site in Houston, Texas that is just 
off of I-10. It has dioxin that has been placed there and 
embedded for a number of years and it is near a harbor and 
barge traffic goes through.
    The Agency has been working with folks at the state level 
and responsible parties for a number of years and the solution 
has been to take a covering and put it over the site and then 
pile rocks on top of the site and it has been that way for 10 
years. I was in Houston in mid-September and looked at the site 
and it is totally unacceptable to have that type of temporary 
situation because of potential hurricanes coming through and 
displacing those rocks.
    So we provided a permanent solution there, about $115 
million of cost that responsible parties are going to bear to 
provide a permanent solution and the citizens, I think, have 
been very pleased with the outcome.
    Mr. Shimkus. The gentleman's time has expired. Let me go to 
the other member from Texas, Mr. Green, for 5 minutes.
    Mr. Green. Thank you for being here today, Mr. 
Administrator. I used to have the San Jacinto Waste Pits but in 
Texas they keep changing our lines. I think it was in Pete 
Olson's for awhile. Now it is in Brian Babin's. Ted Poe had 
part of it. So, we change our lines in Texas.
    But I want to thank you for visiting right after Harvey and 
seeing what was there. And I appreciate EPA continuing to make 
sure we have a permanent fix there because that area is like 
you said, barge traffic, people crab and fish in that area and 
both the city, the county, and the state have signs up in 
Spanish, English, in Vietnamese that expectant mothers or small 
children should not eat the crabs or the fish. But I don't know 
if that day you were there, but every time I go there everybody 
is fishing.
    So, but thank you and hopefully we can move that as quickly 
as possible because it is an industrial area but it also is a 
recreational area, because I water-skied in that water back 
when I was young.
    But is there a contradiction of priorities of EPA between 
the cleanup of the Superfund sites and the Agency's commitment 
to the drastic cuts in the Superfund program? I know the EPA's 
budget request was 30 percent cut in the Superfund program. I 
know that may not affect San Jacinto Waste Pits because we have 
a responsible party, but there are a lot of Superfund sites 
around the country that don't have a responsible party.
    Mr. Pruitt. Well, it is a concern, Congressman. In fact, 
during the appropriations process, I conveyed to our committee 
that if monies were necessary to address those orphan sites--we 
have orphan sites that make up the Superfund portfolio--that I 
would come and advise Congress and ask for those funds. I mean 
it is very important that as we go forward on Superfund cleanup 
that money not be the problem on how we get those cleanups. We 
need accountability there.
    I will tell you that in my time evaluating the Superfund 
portfolio there are very few orphan sites and most of it is 
just a lack of direction on how we should clean up. There are 
several examples, in Chicago. I think one of the members 
earlier today mentioned Portland. San Jacinto was one of those 
where there just simply wasn't much direction on how to get 
accountability and how to get cleanup with these responsible 
parties.
    And so we are trying to do both, but I commit to you that 
if there are issues, deficiencies on funding with respect to 
that Superfund priority we will advise you and ask for help as 
we work through the appropriations process.
    Mr. Green. OK. Well, thank you. Because I know back in 
September the EPA Inspector General issued a report about the 
distribution of Superfund full time FTEs among the EPA regions 
does not support the current regional workloads. As a result, 
some regions have to prioritize work and are slowed down like 
you mentioned or discontinued. And are you aware of that OIG's 
report?
    Mr. Pruitt. Yes. I have actually talked to the Inspector 
General about the Superfund issues going forward and we have 
looked at some management issues. How we bid projects, 
sometimes they are not competitively bid. We sometimes are 
getting bids that take--routinely I hear something will take 15 
or 20 years. And I have pushed back saying that perhaps that is 
not how long it should take and maybe the bid is just trying to 
prolong things as far as receiving funding for 15 or 20 years 
in those contractors.
    So we are trying to get reform both in how we process and 
how we bid out and do remediation, but also making decisions 
early in the process to make sure that we get accountability on 
outcomes.
    Mr. Green. OK, since I come from the Houston area and the 
Houston ship channel, where we have five refineries, my next 
question. The EPA recently released its final ruling on 
renewable fuel standard that said 15 billion gallon standard 
for conventional ethanol. I know many of my refineries in my 
district and along the Gulf Coast were disappointed with this 
final number.
    Would you commit to lowering future RFS requirements to 
avoid this blend wall that we are having? And I know from 
Oklahoma you understand.
    Mr. Pruitt. Well, Congressman, I can't commit to certain 
outcomes with respect to that process. That is a rulemaking 
process. But what I can tell you is what I shared earlier with 
the question, we will objectively determine each year what the 
production levels look like they are going to be. We are 
tracking those numbers now.
    Biodiesel has been as big of a challenge as conventional. 
We have routinely set that at 2.1 or higher. 2.1 was the last 
number before this year. And as I indicated, we imported 700 
million gallons of bio-based diesel from Argentina to meet that 
2.1 billion gallon limit. So we ought not be dependent upon the 
people of Argentina to meet a volume obligation that we are 
setting domestically so that is something that we will continue 
to look at, but we can't prejudge those outcomes at this point.
    Mr. Green. Well, and every time I talk to one of my 
refineries they talk about the problems of RINs and of course 
the chair of the committee is a great fellow from Illinois but 
we do have some differences on corn ethanol as compared to 
biofuel.
    Mr. Pruitt. But Congressman, it is a fair point and I will 
say to you it is a real issue as far as RIN reform. We need to 
get some accountability in the RIN market. There is a lot of 
speculation that goes on with respect to RINs. There are 
enforcement issues, fraud that occurs. In fact we just 
prosecuted a company, I think it was 30 million plus as a fraud 
that occurred in the RIN market. There is a lot of work to be 
done to get reform and accountability in the RIN market.
    Mr. Green. I would be glad to work with you on that. Thank 
you.
    Mr. Shimkus. The gentleman's time has expired. The chair 
now recognizes the gentleman from Ohio, Mr. Johnson, for 5 
minutes.
    Mr. Johnson. Thank you, Mr. Chairman. And Mr. 
Administrator, thank you for being here with us today. Let me 
first express my support for your comments on cooperative 
federalism. When issuing drastic regulatory changes like the 
Clean Power Plan, the previous administration did not take into 
account the people that would have been most truly affected by 
those regulatory changes and those are the hardworking coal 
miners, the power plant workers, and others throughout the 
industry supply chain, all of which, many of which live in 
eastern and southeastern Ohio where I live and represent.
    As you well know, the Ohio EPA along with many other states 
breathed a sigh of relief when the Supreme Court issued a stay 
of this rule that would have had a devastating effect on not 
only Ohio's electricity generation and economy, but other 
states as well. That in my opinion is not cooperative 
federalism. Now EPA's recent public hearing in West Virginia on 
the proposed repeal of the Clean Power Plan I think exemplifies 
the Agency's willingness to listen to those that would have 
been most affected by the rule.
    No one cares more about the air we breathe nor the water we 
drink than those of us that live in regions where that kind of 
work goes on, places like eastern and southeastern Ohio where 
some of the best paying energy and manufacturing opportunities 
for jobs reside. There is a necessary balance to environmental 
protection and a process to share that responsibility with 
states and local leaders like you have suggested is a crucial 
and much needed change to how these regulations have been 
approached in the past. So I applaud your work in that regard.
    Mr. Pruitt. Well, if I could say, Congressman, and to give 
you an example about how it shouldn't work, when I came into 
this position there were 700 approximate state implementation 
plans that many of your states had prepared on how to improve 
air quality where resources had been devoted, expertise 
delegated at the state level to improve air quality pursuant to 
those state implementation plans. They were sitting on a shelf 
at our agency that we had not acted upon and that is just 
simply not a good way to do business.
    We as an agency need to respond up or down on those kinds 
of plans to give input and direction back to states. We need to 
encourage and want to encourage states to take those kinds of 
steps. And I think it was very disheartening over the last 
several years for that to take place. We are trying to remedy 
that.
    Mr. Johnson. Well, I thank you for that collaborative 
approach. I want to move on to another subject though that is 
important in our state, the deadlines under which the Brick 
MACT which were set up under, set under a 2015 EPA rulemaking 
are soon approaching. These regulations affect domestic brick 
and tile manufacturers among other small businesses typically 
located in rural communities, and in most cases are the primary 
source of jobs in those little small communities especially in 
my district. The EPA, your agency, recently announced its 
intentions to reconsider these regulations. Can you please 
elaborate on status and timing of the Agency's reconsideration 
of the Brick MACT regulations?
    Mr. Pruitt. Well, as far as the timing it would be very 
difficult to provide that to you at this point, Congressman. I 
think we need to assess what that process will look like. It is 
not a rulemaking process, per se, but it approaches that and so 
that is something that we will have to evaluate.
    I apologize that I don't have that answer, but----
    Mr. Johnson. Can you look at it and get back to us?
    Mr. Pruitt. Sure.
    Mr. Johnson. OK, all right. That will work. Let me just 
make some comments about that. The last Brick MACT rule was 
enacted in 2003. Hundreds of millions of dollars spent by the 
industries to comply then later vacated by a federal court, but 
only after most brick manufacturers had already committed to 
facility modifications to comply and the money had been spent.
    So for all practical purposes, judicial review was 
meaningless in that case in terms of the economy and the jobs. 
Do you agree we don't want to see a repeat of that kind of 
situation?
    Mr. Pruitt. Absolutely. And I think as we look at other, 
there are other examples, Congressman. Where that has happened 
where there has not been a stay of enforcement on a particular 
rule. Those that are required to meet the rule's obligations 
take those steps and by the time that judicial review takes 
place it is somewhat hollow with respect to whether the rule 
was constitutional or lawful in the first instance. So I think 
it is very important that we work to get these things right so 
that that doesn't happen.
    Mr. Johnson. I appreciate it. Mr. Chairman, I yield back a 
5 whole seconds, and I thank you for your service, Mr. 
Administrator.
    Mr. Shimkus. The chairman thanks him and the chair now 
recognizes the gentlelady from Colorado for 5 minutes, Ms. 
DeGette.
    Ms. DeGette. Thank you so much, Mr. Chairman. Administrator 
Pruitt, thank you for coming today. I am the ranking Democrat 
on the Oversight and Investigations Subcommittee of this 
committee and I will tell you, we all take our obligations very 
seriously. Effective oversight relies on receiving the 
information from the agencies that we oversee.
    And members of the committee have sent the EPA over 34 
written requests this year including requests about the lack of 
transparency at the Agency, removal of climate data from the 
website, and other critically important topics. Now to date, 
Mr. Administrator, we have received no response to eight of 
these letters. Let me give you an example and I can give you 
copies of all of these.
    On May 18th, members of this committee and the Committee on 
Science, Space, and Technology sent a letter requesting 
documents and additional information on EPA's premature removal 
of qualified experts from EPA's board of science counselors. 
Now we still, 7 months later, have not received a response.
    Mr. Pruitt, can you commit to giving us a timely response 
to this request?
    Mr. Pruitt. Are you referring to BOSC? Is that what you are 
referring to, the Board of Scientific Counselors?
    Ms. DeGette. That is correct.
    Mr. Pruitt. Yes. We will provide whatever information you 
need there.
    Ms. DeGette. Thank you.
    Mr. Pruitt. I would disagree that it was a premature 
removal. Yes.
    Ms. DeGette. Well, no, no. I am not arguing with you about 
the substance.
    Mr. Pruitt. Yes. Yes.
    Ms. DeGette. I just need to get the information.
    Mr. Pruitt. Sure.
    Ms. DeGette. And then there are seven other letters that we 
have not gotten responses. Can you also commit that you will 
give us responses to those letters?
    Mr. Pruitt. If you inventory those. I have a----
    Ms. DeGette. I will give you copies of all of them.
    Mr. Pruitt. Yes. Yes.
    Ms. DeGette. Now there are 22 other letters, Mr. Pruitt, 
that the minority at least feels have had incomplete response. 
For example, there was one on April 20th where Ranking Member 
Pallone sent a letter requesting a briefing on the budget 
requests and they got a five-sentence letter back that 
basically said we are developing the President's budget based 
on the framework provided by the blueprint and gave no other 
information. It is hard for us----
    Mr. Pruitt. What timeframe is that? I am sorry, 
Congresswoman.
    Ms. DeGette. It was April 20th.
    Mr. Pruitt. OK.
    Ms. DeGette. So it is hard for us to develop our oversight 
if we don't have this information. I am going to work with 
other members of this committee on those other 22 letters to 
drill down and see what additional information we feel we need 
from the Agency. Can I get your commitment to please also 
respond to those and I will give that all to you?
    Mr. Pruitt. Yes, ma'am. And I will say we have got a group 
of individuals that----
    Ms. DeGette. Thank you. Thank you very much. I only have 5 
minutes. I am so sorry. One of the things about the lack of 
information is the TSCA bill. And I will tell you, my buddy Mr. 
Shimkus and I and all of us on this committee, we worked really 
hard to revise TSCA and that is one of the crowning 
achievements, we think, of this committee.
    But since we did this on a bipartisan basis, the Obama 
administration proposed banning methylene chloride from use as 
a paint stripper based on extensive evidence of unreasonable 
risk to human health, and so we haven't heard yet from the EPA 
whether they are giving the public an indication about whether 
they are finalizing the rule. I just have a couple of questions 
around that.
    Have you personally met with Dow Chemical or the American 
Chemistry Council to discuss this rule while we are waiting for 
the update?
    Mr. Pruitt. No, ma'am.
    Ms. DeGette. OK. And will you commit to finalizing this 
TSCA rule for methylene chloride and doing so soon?
    Mr. Pruitt. I will commit to reviewing it and giving you an 
answer soon, yes.
    Ms. DeGette. That would be great. When do you think we can 
get an answer?
    Mr. Pruitt. I don't know, but we will advise you soon after 
this meeting.
    Ms. DeGette. OK. That would be great, thanks. We will be on 
top of it, don't worry. Now one last thing, a press account 
said that you installed a $25,000 soundproof booth in your 
office at EPA headquarters. Is that true?
    Mr. Pruitt. It is a secure phone line.
    Ms. DeGette. OK, so it is a SCIF, what we call a sensitive 
compartmental information facility; is that right?
    Mr. Pruitt. Yes.
    Ms. DeGette. And did you do that because part of the EPA's 
mission involves classified information?
    Mr. Pruitt. Yes, ma'am, part of that but also 
communications with the White House. There are secure 
conversations that need to take place at times and that is----
    Ms. DeGette. So you believe it is appropriate to use the 
SCIF to talk to the White House?
    Mr. Pruitt. I believe that there are secure conversations 
that need to take place that I didn't have access to that----
    Ms. DeGette. OK. So what percentage of your work would you 
say is conducted in this SCIF?
    Mr. Pruitt. It is hard to predict that----
    Ms. DeGette. Well, is it 50 percent of your conversations? 
Is it 75 percent?
    Mr. Pruitt. Cabinet level officials need to have access to 
secure communications.
    Ms. DeGette. Oh. I am talking about the one that you put 
into the EPA. How often do you use that SCIF?
    Mr. Pruitt. It is hard to predict in the future----
    Ms. DeGette. 95 percent?
    Mr. Pruitt. I haven't taken any calculations of that.
    Ms. DeGette. Well, when you use that----
    Mr. Pruitt. It is necessary for me to be able to do my job.
    Ms. DeGette. OK, let me ask you. So you use that only for 
classified information or for communications with the 
President. Is that your testimony?
    Mr. Pruitt. It is used for secure communications that need 
to take place at the office.
    Ms. DeGette. And that is what you think is appropriate for 
a SCIF. Thank you, Mr. Chairman. I yield back.
    Mr. Shimkus. The gentlelady yields back her time. The chair 
now recognizes the gentleman from Texas, I believe, Mr. Flores, 
for 5 minutes.
    Mr. Flores. Well, thank you, Mr. Chairman. And I thank you, 
Administrator Pruitt, for joining us today. I want to thank you 
for the EPA's timely rollout of the RFS standards. I think it 
is the first time in the RFS that that was done, so I 
appreciate that. There is a bipartisan group of us here in 
Congress including Chairman Shimkus, Peter Welch, others, and 
myself that are working on a solution to this, the challenges 
of the current RFS statute also with respect to RIN reform, so 
we may need data and input from you and so be expecting a 
request from us on that.
    Moving to ozone for a minute, one of the challenges with 
ozone regs is that the 2008 standards were rolled out and then 
there were huge delays in the rollout methodology from the EPA 
and then the 2015 standards were levied out on top of that. 
That has created substantial uncertainty in our communities in 
terms of trying to comply with two standards essentially at one 
time.
    And then when you add to that there is a growing 
recognition that--well, before I get to that, today I think 
most people agree that most of the country even based on some 
of the EPA's own modeling show that most of the country will be 
in compliance in 7 years with both standards.
    And then you add to that there is a growing recognition 
that international pollution is causing several communities to 
not be able to meet the standards. There is actually a recent 
analysis by the Midwest Ozone Group of the EPA said that but 
for international contributions the United States east of the 
Rockies would attain the 2008 and 2015 standards by 2023.
    So a couple of questions in this regard, the first one is 
does it make sense to force new compliance burdens on states 
before existing controls have been implemented?
    Mr. Pruitt. Well, speaking generally to those pollutants 
that we regulate under NO<INF>x</INF>, I think the 5-year 
review process that we engage in should be a review and not 
necessarily just an automatic ratcheting down, because I think 
when you look at the 75 parts per billion versus the 70 parts 
per billion that was the focus of the ozone rule, there are 
issues that you describe. Air transport issues, background 
ozone, exceptional events I think came up earlier today. There 
are issues that we need to calculate and understand as those 
standards are set.
    So going forward, I think the 5-year review process should 
not be interpreted as an automatic ratcheting down. It should 
be a review of whether the levels are protective of human 
health.
    Mr. Flores. OK. Do you think it makes sense for states or 
communities to be punished for ozone that is beyond their 
control that comes in from other areas or background ozone?
    Mr. Pruitt. No. And in the designation process, 
Congressman, we try to take that into consideration. There are 
areas in Wisconsin as an example that are facing compliance 
issues because of air transport issues.
    Mr. Flores. Right.
    Mr. Pruitt. And we are trying to calculate that into the 
designation process as best we can.
    Mr. Flores. Good. In order to address the situations that 
we have just talked about, supplementally, in order to comply 
with my time limit, I would like you to tell me what you think 
Congress could do to help with this and also what EPA could do 
under its current statutory authority.
    Mr. Pruitt. Well, I think that, mentioning background ozone 
and background levels, I think there are certain parts of the 
country that really have--there is no economic activity that 
could occur and they still would be violative of the standard 
that has been set. So I think Congress assisting the EPA in how 
to address background levels would be substantially important.
    I think also the exceptional events, there is a lot of 
confusion, better put, lack of clarity on how to apply 
exceptional events in the designation process and otherwise and 
so I think some clarity around that would be much appreciated.
    Mr. Flores. OK, great. We are working on that. I wanted to 
take a second of my remaining time to ask for your help with an 
agricultural herbicide that is called glyphosate. I think it is 
more commonly known as Roundup by the manufacturer.
    Last month, HHS released an agricultural health study that 
determined that this particular chemical does not cause cancer, 
again does not cause cancer, and that is similar to a study, 
the outcome of a study that the EPA made this past March. The 
challenge is that the state of California and the International 
Association for the Research of Cancer claiming that it does 
and that creates uncertainty among our agricultural community 
as well as the manufacturer of this particular herbicide.
    And of course we have got to get all of this sorted out 
because you have one group of folks saying it does, you have 
got two other government agencies saying it does not cause 
cancer. Can I get a commitment from you to have your team take 
a look at this to try to sort this out?
     Mr. Pruitt. Yes. And there has been another study I think 
at NIH that was similar to the one you cited. So there is some 
clarity that we need to provide on this going forward and, yes, 
we need to work with you and others on the committee that are 
concerned about that.
    Mr. Flores. OK, thank you. I yield back the balance of my 
time.
    Mr. Shimkus. The gentleman yields back his time. The chair 
now recognizes the gentleman from California, Mr. McNerney, for 
5 minutes.
    Mr. McNerney. I thank the chairman and I thank the 
administrator for coming here in front of us today. In response 
to Chairman Walden's questions, you said that the U.S. should 
celebrate the progress that has been made in reducing air 
pollution. I agree. You also said that that is in large part 
due to technology and innovation. I agree completely. But do 
you think that the progress that has taken place would have 
been made without the EPA regulations enforcements? And these 
are regulations that you are now eliminating.
    Mr. Pruitt. I think the EPA's regulation framework has 
helped, absolutely, in contributing to those outcomes, but I 
think it has been a partnership between regulatory response as 
well as technology in the private sector. So I think it has 
been a combination of factors.
    Mr. McNerney. OK. Ozone pollution is one of the most 
widespread pollutions in the United States and scientists have 
been studying its effect on health for decades. Hundreds of 
research studies have confirmed that ozone harms people at 
levels currently found in the United States. The Clean Air Act 
requires that the EPA to review the latest scientific evidence 
and set air quality standards that will protect public health, 
these standards that we rely on to know whether ozone is safe, 
what levels of ozone are safe.
    Administrator Pruitt, do you agree that the ozone pollution 
is a problem that the EPA should address?
    Mr. Pruitt. Yes. It is a criteria pollutant under the 
NO<INF>x</INF> program that needs to be addressed.
    Mr. McNerney. Good. Approximately 30 percent of the people 
in my district suffer from asthma partly related to ozone, but 
your actions, in my opinion, do not demonstrate a commitment to 
addressing the problem. For example, on October 1st, 2017 
marked the legal deadline for the EPA to identify communities 
with levels of ground level ozone pollution above the EPA's 
2015 ozone standard. These are also known as non-attainment 
areas.
    Administrator Pruitt, you spoke a lot about the rule of law 
in your statement. Did the EPA announce attainment designations 
by the October 1st statutory deadline?
    Mr. Pruitt. Congressman, we have designated all but 50 
sites across the country, approximately, and we have made 
tremendous progress since the timeframe that you are talking 
about, so we are very close to finishing that process.
    Mr. McNerney. But you didn't make the October 1st deadline.
    Mr. Pruitt. Some of those were designated prior to that 
time, yes, but not all.
    Mr. McNerney. Well, I think you mentioned this already, 
about half of the counties that were not designated by October 
1st comprise about half of the United States population.
    Mr. Pruitt. Some of that is based upon, Congressman, on 
information that has not been provided by the states. So 
sometimes there is insufficient information in which for us to 
make a determination and so there is a communication to those 
states to get that in to help us finish that process. It is not 
exclusively, you know, something we can do without that 
information.
    So it is a combination of factors, but we are working 
diligently to finish that process. The designations are 
occurring. And as I indicated, there is only approximately 50 
sites across the country that need to be designated, out of 
hundreds by the way.
    Mr. McNerney. OK. Will the EPA engage in a transparent and 
science-based process in setting designations for the remaining 
parts of----
    Mr. Pruitt. I am sorry, Congressman.
    Mr. McNerney. Will the EPA engage in scientific and 
transparent process in designating those areas----
    Mr. Pruitt. It will absolutely be a part of the record.
    Mr. McNerney. Well, on your website you state that the 
purpose of the EPA is to ensure that all parts of society--
communities, individuals, businesses, state and local and 
tribal governments--have access to accurate information 
sufficient to effectively participate in managing human health 
and environmental risks. Are you fulfilling the purpose of the 
EPA keeping information from Americans about the ozone levels 
in their area?
    Mr. Pruitt. I am not sure in what ways, Congressman. Maybe 
you can clarify your question, how we are keeping it from those 
citizens.
    Mr. McNerney. Well, you haven't, you didn't meet the 
October 1st deadline and you still haven't fulfilled the entire 
requirement. So you are keeping information from communities 
that need to know what their attainment levels are.
    Mr. Pruitt. That is not information, it is a designation 
process which is a legal process, Congressman, that we are 
going through to make those designations, which we need 
information to do that and I think we are making tremendous 
progress and should be done very soon.
    Mr. McNerney. Administrator Pruitt, you have made it clear 
that you are committed to Superfund cleanup, but what about 
preventing creation of new Superfund sites? What is your 
commitment in that regard?
    Mr. Pruitt. In what regard, Congressman?
    Mr. McNerney. Well, the EPA's job is to protect public 
health, so it should be the job to prevent companies or 
entities from creating Superfund sites. Are you committed to 
that?
    Mr. Pruitt. Correct. That is something--when you say 
creating Superfund sites, sometimes states actually ask for us 
to put Superfund sites on a list which I was just trying to get 
clarity about that. Yes.
    Mr. McNerney. I am not talking about designation. I am 
talking about creating pollution that could be designated as a 
Superfund site.
    Mr. Pruitt. Obviously lead, uranium, these issues, we want 
to do all we can to eliminate those things so we don't have 
those kinds of sites across the country, absolutely.
    Mr. McNerney. Well, in your rush to eliminate regulations 
that is exactly what you are doing is creating opportunity for 
new Superfund sites to be created.
     Mr. Pruitt. I wouldn't interpret it that way, Congressman.
    Mr. Shimkus. The gentleman's time has expired. The chair 
now recognizes the gentleman from North Carolina, Mr. Hudson, 
for 5 minutes.
    Mr. Hudson. Thank you, Mr. Chairman. And thank you, Mr. 
Administrator, for making the extra effort to come back and 
take all of our questions and thank you for your strong 
leadership at the Agency. I appreciate also your efforts to 
make the EPA focus on air and water and soil contamination.
    My state of North Carolina has been shaken by a discovery 
of a chemical called GenerationX in the Cape Fear River. I know 
my state reports that GenX is no longer getting into the river 
and that treated drinking water is within state health goals. 
The previous EPA administrator permitted use of this chemical 
within conditions in 2009. Can you say whether EPA has 
discovered if GenX was used in an impermissible fashion?
    Mr. Pruitt. I am not aware, Congressman. We can provide 
that information to you. I don't have any information on that 
today, but we can get that to you.
    Mr. Hudson. I appreciate it. I understand the EPA is 
updating its risk assessment of GenX and is performing an 
independent laboratory analysis and several other compounds in 
water samples that are being collected now by the North 
Carolina DEQ along the Cape Fear River including waste water, 
surface water, ground water, and treated drinking water 
samples. Are there any findings that you can discuss on that so 
far?
    Mr. Pruitt. Again on that I would have to get the 
information from the office and provide that to you to make 
sure it is complete, comprehensive, and up to date.
    Mr. Hudson. Great. I appreciate that. One issue that is a 
real concern to folks in my part of North Carolina, whether it 
is agriculture or just property owners in general, is the 
Waters of the USA regulation. And I have heard some of your 
critics say that you have done the same thing as your 
predecessor in that you have already decided the outcome of the 
rule and are just casting about for justifications. That is 
sort of the claim that we keep hearing. I would love to give 
you a chance to respond to that.
    Mr. Pruitt. Well, I think oftentimes with respect to issues 
like Waters of the United States and CPP, it is not 
deregulation in the true sense. The Waters rule that was 
adopted in 2015, the stated objective was to provide clarity. 
That was what the past administration said. If that were the 
stated objective it was they failed miserably.
    Mr. Hudson. I agree.
    Mr. Pruitt. Because the confusion across the country on 
what a Water of the United States is where federal jurisdiction 
begins and ends. And so there is a process that we are going 
through to deal with the deficiency. There is a court stay 
against this 2015 rule that you are aware of, and so our 
obligation is to provide a definition and that process has 
begun in earnest and we should have a proposed rule by April of 
next year timeframe and we are taking significant comment on 
that along with the withdrawal of the 2015 rule. So it is not 
deregulation in the truest sense, it is regulatory clarity 
going forward so we know where federal jurisdiction begins and 
ends.
    Mr. Hudson. Sounds good to me. One of the main arguments in 
favor of the Obama administration's Waters rule is that it is 
essential to protecting drinking water and that without this 
version of the rule public health would be at risk. The Safe 
Drinking Water Act, however, has provisions addressing both the 
protection of source water, Sections 1453 and 1454, and 
underground sources of drinking water, Part C. Do you agree 
that the Safe Drinking Water Act has these provisions and 
provides protection to source waters?
    Mr. Pruitt. Absolutely. And let me say to members of the 
committee, one of the things that we are focused upon as we 
head into 2018 is lead in our water supply, safe drinking 
water. And I think there are tremendous challenges we have 
across the country with respect to service lines in particular 
communities and the lead that is seeping into the water supply 
of our children. It is one of the greatest environmental 
threats I think we face as a country.
    And one of the things that I hope that I can work with this 
committee on as we go into 2018 is a strategy over a 10-year 
period to eradicate those concerns. And it is going to be a 
very ambitious initiative at our agency and it is something 
that we have various offices in the Agency working upon. There 
are about 17 agencies actually that are working on this issue 
of lead as well.
    And I am sending a letter to my colleagues in other 
agencies to make this a point of emphasis as we go into 2018. 
So not only do I agree with what you are saying about the reach 
on these issues, but I think there are important matters that 
we can take on lead that will make a difference for our 
citizens across the country going forward.
    Mr. Hudson. Well, thank you for your answers.
    And Mr. Chairman, I think I can speak for folks on both 
sides of the aisle that we look forward to that discussion. And 
with that I will yield back.
    Mr. Shimkus. The gentleman----
    Mr. Pruitt. And I understand, if I may for a second.
    Mr. Shimkus. You may.
    Mr. Pruitt. I understand that that is a costly endeavor. 
Replacing service lines across the country it has been 
estimated may cost as much as $30 billion or maybe upwards of 
$50-, $30- to $50 billion. But I will say to you that if we can 
develop a 10-year strategy on how to address that across the 
country--the State of Michigan as an example, right now, is 
considering lowering its levels from 15 parts per billion down 
to 10 parts per billion on the standard, but they are also 
spending a tremendous amount of money to replace those lead 
lines, as I understand it.
    And that is good leadership with the governor of Michigan 
and I think, frankly, we in Washington need to have that kind 
of conversation with states across the country to focus on that 
issue. The President has talked about infrastructure, the 
importance of using some of the infrastructure discussion to 
address some of these things and I look forward to that 
discussion with you.
    Mr. Shimkus. So if the gentleman would allow me to yield, 
so we passed a Safe Drinking Water Act out of the full 
committee which should be helpful in this. My friends on the 
other side wanted more money, so maybe in a supplemental and 
stuff in this process, we have already started moving to try to 
do that legislatively, but executive branch focus would be 
helpful.
    Mr. Pruitt. Look, it is not just service lines. It is 
corrosion control measures that need to be deployed, obviously 
paint as well. So there is a multifaceted approach that we need 
to evaluate on how to declare a war on lead, if you will, but I 
want to let you know as a committee it is something I desire to 
work with you going forward in 2018.
    Mr. Shimkus. You will have some interest.
    The chair now recognizes the gentleman from California, Mr. 
Cardenas, for 5 minutes.
    Mr. Cardenas. Thank you very much, Mr. Chair.
    Mr. Pruitt, appreciate the opportunity for us to--as I 
quote you, the dialogue that begins today. I hope that future 
dialogue doesn't span 10 months between these opportunities. Is 
your current office, place of work, Washington, D.C.?
    Mr. Pruitt. Yes, sir.
    Mr. Cardenas. OK. And prior to becoming the EPA 
administrator what city or state did you live in?
    Mr. Cardenas. Tulsa, Oklahoma.
    Mr. Cardenas. Tulsa, Oklahoma, OK. Well, Mr. Pruitt, I 
would just like to point out for the record that you traveled 
to Oklahoma for 43 out of 92 days this spring according to the 
Washington Post. That is almost half of every day in March, 
April, and May of this year. I am extremely troubled by reports 
that your frequent travel to and from Oklahoma occurred at the 
expense of the U.S. taxpayer and cost more than $15,000 just on 
those trips alone. And it appears I am not the only one 
concerned.
    At the request of members of this congressional committee, 
EPA's Office of Inspector General has begun an audit to review 
issues of potential waste, fraud, and abuse associated with 
your frequent travel back to Oklahoma at taxpayers' expense. 
Also, your record of wasting taxpayer dollars does not end 
there.
    Later news reports uncovered that you along with other 
members of the Trump administration have been using private 
jets and military aircraft at tremendous taxpayer expense. One 
of the most expensive examples was in early June when you and 
several of your staff traveled on a military jet from 
Cincinnati, Ohio to John F. Kennedy Airport in New York on your 
way to Italy. The cost of that flight alone was reportedly over 
$36,000. In August, you chartered a private plane to fly from 
Denver, Colorado to Durango, Colorado, in the same state, 
costing the U.S. taxpayers over $5,000. You did so even though 
the governor of California had reportedly offered to fly you on 
a state-owned plane.
    Mr. Pruitt, the taxpayer bill for your travel on private 
jets and other non-commercial aircraft is a record total more 
than $58,000 since February of this year alone. These costs are 
especially offensive given the severe cuts you have proposed to 
essential and lifesaving EPA programs. Take, for example, the 
Office of Environmental Justice which helps poor communities 
who are being disproportionately impacted by environmental 
pollution. This administration proposed to eliminate the Office 
of Environmental Justice.
    So Mr. Pruitt, are the American people supposed to believe 
that we cannot afford $2 million to help our most vulnerable 
communities but we can afford tens of thousands of dollars for 
you to fly on private jets?
    Mr. Pruitt. First, I want to say to you, Congressman, I do 
look forward to the dialogue and I appreciate your comments 
going forward. I think there is much work that we can engage in 
together and I look forward to that discussion.
    Environmental justice is something that I met with, 
actually, internal members of our team, yesterday, talking 
about issues like East Chicago. Environmental justice is an 
important issue. It is something that we seek to translate to 
real action on the ground and we have since I have been 
serving, with particular emphasis on Chicago in the east, the 
Superfund situation there.
    On the travel that you have highlighted I would just say to 
you, every trip that I have taken to Oklahoma with respect to 
taxpayer expenses has been business related. When I was in 
Oklahoma for a WOTUS meeting, a Waters of the United States 
meeting, we had three states converge in the Panhandle of 
Oklahoma that had Kansas, Oklahoma, and Texas come together. 
There were hundreds of individuals in attendance. That is a 
very important effort.
    Bird Creek in Osage County had high salinity levels. Region 
6 had not responded to those high salinity levels. There was 
harm taking place with fish in that water and as such we needed 
to take action and I was there to address that. There are 
concerns that affect Oklahoma and Region 6 just like every 
state. Every dollar that was expended with respect to those 
travel was business related. When I have traveled back to the 
state for personal reasons I paid for it and that will bear out 
in the process.
    But let me say this to you, finally, with respect to the 
travel, commercial travel is what we fly almost exclusively. 
The situation in Cincinnati, I fly with the President for a 
meeting on infrastructure. We were going to the G7 in Italy and 
could not make the flight at JFK unless we got a public 
transport, so that is why that decision was made. But it has 
been only four instances during the entire time that I have 
been serving as administrator and it was always based upon 
circumstances.
    You mentioned the one in Colorado, the reason that occurred 
is because we were going into Gold King, Colorado to address 
the needs and concerns of the citizens there and couldn't make 
it otherwise. And I would dispute the governor's reference that 
you made earlier.
    Mr. Cardenas. Oh, really. OK. Well, thank you very much for 
stating for the record, because the Inspector General is 
looking into those details and I hope it all bears out and 
let's see what the outcome is.
    Well, I wanted to be respectful of giving you an 
opportunity to answer and there goes all of my time. So with 
the last 5 seconds, I just would like to ask that I be able to 
insert these two letters from the EPA's Inspector General 
agreeing to investigate this travel. I ask unanimous consent to 
enter them into the record.
    Mr. Shimkus. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. The chair now recognizes the gentleman from 
North Dakota, Mr. Cramer, for 5 minutes.
    Mr. Cramer. Thank you, Mr. Chairman.
    Thank you, Mr. Administrator, for your candor, for being 
here, and for your strong leadership. And I might just say you 
used a term in responding to Mr. McNerney that I think is a new 
term at the EPA and that was partnership. And I think that my 
friend from California's line of questioning bears out that you 
see states as stakeholders and partners not as subordinates. 
Thank you for going to places like Oklahoma and to North Dakota 
and other states in the middle of real America that are 
affected by what for the last 8 years has simply been a 
dictatorship by the EPA. So thank you for that and we 
appreciate your willingness to address us in our home states.
    I also want to congratulate you on your incredible work on 
meeting these deadlines, the 27 years that gets done in a 
matter of weeks and months. It probably shouldn't seem like 
such a high standard, but by comparison and doing all that with 
only one confirmed AA is really quite remarkable. So I look 
forward to when you have a full staff and a full team and we 
can really get to it.
    And I know CPP and WOTUS are the big topics obviously in 
North Dakota as you know, but I want to get to the heart of a 
couple of things that you have emphasized. And like my friend 
from Texas, Mr. Olson, I appreciate your commitment to process 
and rule of law. I appreciate your commitment to cooperative 
federalism.
    And I know you are very familiar with a couple of North 
Dakota cases. One in particular of course, the regional haze 
case that started in California and North Dakota was blocked 
from intervening in, which just kind of blows me away that 
states don't have as a matter of right, constitutional right, 
standing in cases that affect them especially with regard to 
regulations that they have primacy over regulating.
    The more recent one is one that sort of straddled your memo 
on sue and settle that I want to bring to your attention and 
see if we can't work more closely together--you, me, our 
attorney general--on addressing it as we go forward. And that 
was a RCRA revision of rules that was proposed in 2016, a 
consent decree was declared between the EPA and 
environmentalist groups and North Dakota was blocked from 
intervening.
    And this is, it related to oil and gas industry in our 
state, where our state has primacy we were blocked from 
intervening. Oral arguments in October of this year, about the 
same time as you were putting out your memo, occurred in the 
D.C. Circuit Court of Appeals and we were blocked again. The 
environmentalists and the EPA prevailed.
    But what was most disturbing about that and why I want to 
bring it to your attention is because you have a really big 
task in front of you to meet not just the rules but the culture 
change that we hope to achieve, and that is it was the 
Department of Justice attorneys that argued so effectively 
against the State of North Dakota in the D.C. Circuit.
    So as we go forward, what I would love to do is be able to 
maybe have a meeting with my attorney general and you and me 
and plan the next phase of this and use the State of North 
Dakota as a partner as opposed to a litigant on the other side.
    Mr. Pruitt. Yes. As I indicated earlier in my opening 
comments and I think in response to questions, from your 
perspective, you have put into place a process by which we are 
supposed to adopt rules. And rules are supposed to be what, 
laws of general applicability. And so when you are involved in 
litigation and you change requirements under a statute, 
discretionary to nondiscretionary or timelines or otherwise and 
then you apply it in a general fashion, that is something that 
I think is offensive with respect to the APA process and should 
be dealt with.
    And that is why the sue and settle practice is important as 
we go forward. We may consider codifying that loosely said with 
respect to rulemaking, but it is important that we implement 
this directive I have sent to respect the APA as we make 
decisions.
    Mr. Cramer. Well, with regard then to states' rights, 
because I really feel like it is not just RCRA, it is all of 
the acts under the EPA, it is several other agencies where it 
seems like the right for a state to have standing somehow has 
to be based on some finding of harm or injury. And it seems to 
me that in a cooperative federalism states should just have 
that right, especially if it is a regulation that they have 
primacy over.
    I am wondering if we should be doing something to codify 
that which it seems to me the Constitution should be adequate 
for, but whether we should do it broadly or whether we should 
do it very specifically. And I might add and then you can 
answer and wrap up my time, should you have some more 
independent litigation authority, independent of, say, of the 
DOJ or other----
    Mr. Pruitt. Well, look. I think on the first point, I do 
think that perhaps Congress addressing the standing of states 
to address some of those. Most of those are state 
implementation plans. Many of them deal with regional haze 
requirements under the Clean Air Act, and I do think it is 
important that the voice of those states are heard.
    And that is the reason as it relates to the directive that 
I issued, we asked Justice to take a very accommodating posture 
with respect to the state intervention on these issues, but 
there probably is more that can be done to make sure that that 
happens going forward.
    Mr. Cramer. Thank you. And I thank you for your service.
    Mr. Shimkus. Time is expired. The chair now recognizes the 
young lady from Michigan, Ms. Dingell, for 5 minutes.
    Mrs. Dingell. Thank you, Mr. Chairman.
    Administrator Pruitt, it is good to see you here and I was 
very glad to hear you talk about this war on lead we need to 
have. I share like every one of us, I have met those children 
in Flint. I have lived with some of those families. It is a 
very serious problem and we all need to work together to make 
sure it never happens in another community again.
    We have been meeting with my mayors for the last year even 
in my own community, included the state.
    Mr. Pruitt. It is not just Flint either.
    Mrs. Dingell. No, it is all--I have it in my district. I 
don't have Flint in my district, but it is a concern all over 
the country. But having said that there are some things I think 
that are happening at EPA that actually threaten that what you 
are talking about. So I have got a lot of stuff to talk about, 
EPA matters in Michigan.
    Could I ask for some yes or no questions just to this. For 
example, the EPA budget for 2018 eliminated two programs that 
provide grants to states and tribe grants to support their lead 
training and certification programs for lead paint removal 
contractors and the lead risk reduction program; is that 
correct?
    Mr. Pruitt. We welcomed Congress restoring that and we 
talked about that in the appropriations process.
    Mrs. Dingell. OK. It would have represented a 90 percent 
reduction or a $26.5 million in funding. In addition to 
proposed cuts, we have seen delays on several key rulemakings. 
You talked about one of them which isn't only in Flint. It is 
another plume that I have got in mind, which is the Agency's 
long overdue update to the Lead and Copper Rule for drinking 
water system. It was supposed to be completed by June of this 
year and now it appears to be delayed to next month. Will we 
see it next month?
    Mr. Pruitt. The Agency, Congresswoman, as you know has 
taken over a decade on that.
    Mrs. Dingell. I nudged them too.
    Mr. Pruitt. No, no. 1991 was the last time we had a Lead 
and Copper Rule.
    Mrs. Dingell. But we need it and you have been promising 
it.
    Mr. Pruitt. And there is much work that has gone on over a 
decade and I will tell you it is a major part of what we need 
to be about with respect to this war on lead.
    Mrs. Dingell. So when are we going to see it?
    Mr. Pruitt. We are working on it and it is something I am 
committed to.
    Mrs. Dingell. All right. And the Agency recently delayed 
implementation of a 2015 rule to require steam electric power 
plants to install pollution control equipment to limit 
effluents, including lead, from being discharged to rivers. The 
2015 rule was the first update to these regulations in 30 
years; is that correct?
    Mr. Pruitt. I am not sure about the timeline, 
Congresswoman. I take that but I don't know for sure if it has 
been 30 years.
    Mrs. Dingell. All right. Can we work together to get these 
things done, because they matter to our communities.
    Now I am going to quickly--but I am going to make one 
little--I am not trying to be--I just care. You made a comment 
to MDEQ that you should have made about reducing the amount of 
staff that they had and that they needed to have more people on 
their team addressing these Flint issues.
    Mr. Pruitt. MDEQ.
    Mrs. Dingell. Michigan Department of Environmental Quality, 
do you know that? You recommended that MDEQ hire more staff 
with water management expertise. I agree with that, but you 
have only got one person. You are offering buyouts and cutting 
experience and manpower at your agency, the one with oversight 
responsibility for all these state programs while advising 
Michigan to do the opposite. So I would encourage you to look 
at that.
    But I have got to do two more things. First, I am going to 
go to my--all politics is local, but it is not just local. It 
matters to this country. We have an EPA lab in Ann Arbor that 
is doing critical work for every single state on automotive 
emissions and fuel economy. The budget would have eliminated 
that. The auto companies support it. The environmentalist 
community supports it. Everybody knows what good work it has 
done.
    Will you support keeping that lab open with all the 
important work we have got coming down the road?
    Mr. Pruitt. I will.
    Mrs. Dingell. Thank you. You just made my day. But now 
having said that the Great Lakes. Michigan is, it is not just 
Michigan. It is all the states that are on the Great Lakes. 
They matter. They are more than 20 percent of the fresh water 
supply in the world. The EPA, the President's budget would have 
eliminated all the dollars for the Great Lakes Restoration 
Initiative or the GLRI. Republicans and Democrats on this 
committee and in the House and Senate worked to restore that. 
The EPA had something to do with eliminating that down to zero. 
Can you explain why and can we work with you to make sure that 
never happens again?
    Mr. Pruitt. Well, I actually talked to your senator about 
this a couple nights ago.
    Mrs. Dingell. We care.
    Mr. Pruitt. Oh, I know, and not just Michigan, but other 
regions. The Great Lakes Initiative is something that has been 
very successful. You have an issue with invasive species there 
with carp.
    Mrs. Dingell. A serious one.
    Mr. Pruitt. And it is something we need to pay attention to 
and I respected Congress and their restoration of those funds 
and appreciate that and we will continue to work with you in 
that regard.
    Mrs. Dingell. And not cut them again?
    Mr. Pruitt. Excuse me?
    Mrs. Dingell. And not make an effort to cut them again?
    Mr. Pruitt. That is a process that we will go through next 
year. That is not something that is unilaterally our decision 
as you know. That is a combination of decisions----
    Mrs. Dingell. We will be back if you do.
    Mr. Pruitt. Yes.
    Mrs. Dingell. Thank you.
    Mr. Shimkus. The gentlelady's time has expired. The chair 
now recognizes the gentleman from Michigan, believe it or not, 
Mr. Walberg, for 5 minutes.
    Mr. Walberg. Thank you. And Michigan works together on 
these things, so I want to thank my colleague for some of the 
questions there.
    But also, Administrator Pruitt, I want to thank you for 
being here. Thank you for your straight talk. I thank you for 
the fact that we don't have to watch you use a lot of notes. 
That says something about your understanding of the issues.
    You made a statement in this Great Lakes Restoration, the 
Initiative report that had a lot of good things in it, your 
Interagency Task Force on the Great Lakes that you--I am 
grateful--chair, and you said that the GLRI is protecting 
public health in the Great Lakes more than any other 
coordinated interagency effort in the U.S. history in helping 
to ensure that our children and their children live in safe, 
healthier communities. I thank you for that statement. I agree 
with you on it.
    I would just follow up my good friend and colleague from 
the other side of the aisle. My question is this. Can I count 
on you and your agency to work with my office, our Michigan 
delegation, and the state to support programs to protect 
cleanup and preserve the Great Lakes?
    Mr. Pruitt. Yes, sir.
    Mr. Walberg. I appreciate that and whatever it takes I 
would assume that that would be the case.
    Mr. Pruitt. I mean as an example, Congressman, as was 
mentioned earlier, the Great Lakes Initiative is similar to the 
Chesapeake TMDL and how the states came together to address a 
concern. There it was something different, but this process is, 
the Great Lakes Initiative is something that we should work 
together to make sure that it is achieving good outcomes and I 
think it has and we will continue that discussion as we head 
into 2018.
    Mr. Walberg. Right. Well, thank you. Another issue I feel 
very strongly about is the environmental threat the algae 
blooms pose to Lake Erie which is in my district. This 
committee has worked over the years to address this issue and 
encourage cooperation between federal agencies and the states.
    I supported my colleague from Ohio. It is tough for a 
Michigander to support Ohio at times especially after the game 
2 weeks ago, but I supported Bob Latta's legislation in 2015 
that required the EPA to develop and submit a plan to Congress 
for assessing and managing risks from the cyanotoxins. Could 
you please update me on the latest efforts by the Agency to 
address the harmful algae blooms in the Great Lakes and more 
specifically Lake Erie?
    Mr. Pruitt. Yes. The algal blooms there, but other parts of 
the country have been a primary point of emphasis for the 
Office of Water working with states on nonpoint source 
discharge for a number of years as you know, Congressman. It is 
something that we actually have a task force internally and a 
dedicated team of individuals looking at that to try to achieve 
better outcomes and that is ongoing.
    I can provide other specifics to questions that you have as 
it relates to Lake Erie. I would have to get that from the 
staff to get an update for you, but it is something that is 
absolutely a priority.
    Mr. Walberg. And we are taking a broad perspective. 
Agriculture has its problems, we know that. We also know in 
Michigan the MAEAP program has attempted to be very effective 
in trying to address the concerns about excess nutrients, 
fertilizers, all sorts of things that come from agriculture. 
But there are other processes that go into this as well and I 
would assume that you would be looking at the total.
    Mr. Pruitt. Well, look. And I think we need to recognize 
that there are farmers and ranchers all over the country that 
have taken very important steps to address those issues. I have 
said many times those farmers and ranchers are our first 
conservationists or our first environmentalists. They care 
about these issues as well and we need to make sure their 
voices are heard to ensure that we are working together to 
achieve those outcomes.
    Mr. Walberg. I thank you for that. What cooperative efforts 
has EPA undertaken with other federal agencies in this matter 
dealing with algae blooms?
    Mr. Pruitt. Congressman, I am not entirely sure if 
Department of Ag has been a part of our discussion. I am sure 
that they have been historically. Sonny Perdue and I have not 
addressed it, but it is something that we ought to do going 
forward and ensure that there is partnership like with the 
Department of Ag and there are probably others, but perhaps the 
Department of Interior with certain aspects of Secretary 
Zinke's shop. But I think Department of Ag would be a very 
important partner in this process.
    Mr. Walberg. OK, invasive species, specifically Asian carp. 
What is the involvement with EPA in looking at that? It is a 
huge, huge problem for the Great Lakes. The Army Corps of 
Engineers, any involvement with them, other federal agencies as 
well as state and local governments, what is the EPA doing 
there?
    Mr. Pruitt. A point of emphasis and you mentioned the 
Corps, the Corps has been very, very involved in that.
    Mr. Walberg. Very, very slow in that as well.
    Mr. Pruitt. Well, perhaps we can encourage them.
    Mr. Walberg. I would appreciate that and we will look 
forward to----
    Mr. Pruitt. We are working together with the Corps on a 
multitude of issues, Congressman, not the least of which is 
WOTUS. But the leadership there has been responsive and so we 
will take that information and make sure that we communicate 
that to our partners.
    Mr. Walberg. Thank you and I yield back.
    Mr. Shimkus. The gentleman's time has expired. The chair 
now recognizes the gentlelady from California, Ms. Matsui, for 
5 minutes.
    Ms. Matsui. Thank you, Mr. Chairman, and thank you, Mr. 
Pruitt, for being here today.
    Mr. Pruitt, I understand that you and President Trump have 
decided to reopen the Midterm Evaluation, the greenhouse gas 
emission standards from model year 2022 to 2025. Can you 
briefly list for us which groups and companies asked you to 
revisit the evaluation?
    Mr. Pruitt. I wouldn't say reopen, Congresswoman, 
necessarily. This is, as you know the Midterm Evaluation was 
supposed to have taken place in April of 2018. That is when it 
was supposed to occur. The past administration accelerated that 
for it to happen in December of '16 into January of '17. And 
this was simply a restoration of process to ensure that the 
midterm review took place consistent with the original 
understanding.
    Ms. Matsui. So this is the halfway step, it is not a total 
evaluation?
    Mr. Pruitt. That is right.
    Ms. Matsui. OK, all right. OK, so I will go along with you 
for that. I just want to suggest to you though that this half-
step evaluation I am somewhat concerned about this because 
these standards to save consumers particularly dollars at the 
pumps and reduce oil consumption has been validated many times 
to reduce greenhouse gas emissions that contribute to climate 
change. And the standard is good for American drivers and good 
for the environment and it is really necessary, particularly 
because the International Energy Agency found that the 
transportation sector is the only area in which the U.S. has 
become less energy efficient
    Now I also believe that our country should be investing in 
clean transportation options and many auto companies share my 
opinion. One of our major domestic auto manufacturers recently 
announced it is cutting spending on internal combustion engines 
and instead investing billions of dollars in electric vehicle 
development. Another company plans to release 20 all-electric 
vehicles in the coming years.
    Can you please answer yes or no, do you support efforts to 
strengthen American innovation and manufacturing through 
electric vehicle R&D and production?
    Mr. Pruitt. It definitely should be a part of the mix, 
Congresswoman. And I would say this to you as well, the Agency 
has not adequately considered with those standards high octane 
being used as well. There has been a lot of focus on the design 
of vehicles and access to electric vehicles as well, but not as 
much on the fuel side and I think that we need to incorporate 
that into the discussion as well.
    Ms. Matsui. So you have a plan to support the electric 
vehicle market in the long term?
    Mr. Pruitt. That would definitely be part of the evaluation 
as we head into April of 2018 and we continue in the years 
ahead, I am sure.
    Ms. Matsui. All right. I am pleased to hear that because 
EVs will be a significant portion of our vehicle mix in the 
future and we need to be positioning the United States to 
benefit from their adoption.
    Mr. Pruitt. We want to ensure, if I may for a second?
    Ms. Matsui. Yes.
    Mr. Pruitt. We want to ensure that as we set those 
standards that you don't want people staying in older model 
vehicles. The whole purpose here is to ensure that as the 
vehicles are manufactured that they meet efficiency levels and 
outcomes that are important to the environment.
    Ms. Matsui. I understand.
    Mr. Pruitt. And so if you don't look at the cross section 
of issues from high octane fuel design and what you have 
raised, Congresswoman, the very purposes are not achieved. And 
so we are taking all those into consideration as we head into 
April '18.
    Ms. Matsui. OK, certainly. Mr. Pruitt, I am now running out 
of time. Does California currently have a waiver to set its own 
light-duty vehicle emission standards through 2025?
    Mr. Pruitt. Yes. There is, as you know, a statutory waiver 
for California that is evaluated as part of the midterm review.
    Ms. Matsui. Right. Is the EPA involving the State of 
California in your review or partial review to a 2022 through 
2025 emission standards?
    Mr. Pruitt. I missed the first part of the question, I am 
sorry.
    Ms. Matsui. Are you involving the State of California in 
your review of the 2022 to 2025 emission standards?
    Mr. Pruitt. As part of the midterm review the California 
waiver is necessarily a part of that process.
    Ms. Matsui. OK, great. That is encouraging because I 
believe that the communication of all involved stakeholders is 
very important. And Mr. Pruitt, can you please answer yes or 
no. Do you believe that environmental laws envision a 
cooperative relationship between states and the federal 
government?
    Mr. Pruitt. Yes.
    Ms. Matsui. In the past you have said that the previous 
administration was ``aggressive about dictating to the states 
and displacing their authority.'' Is this correct?
    Mr. Pruitt. Yes, ma'am.
    Ms. Matsui. Given your support for states' rights under 
federal environmental laws, do you support California's ability 
to seek a waiver to set its own Clean Air Act light-duty 
vehicle standards?
    Mr. Pruitt. Well, federalism principles, Congresswoman, do 
not say that one state can dictate to the rest of the country 
the standard for the entire country. So there are a multitude 
of considerations with respect to the waiver and those we 
considered in due time.
    Ms. Matsui. That we will definitely work with states in 
order to do this.
    Mr. Pruitt. We have already reached out to the governor of 
California and are waiting for a response.
    Ms. Matsui. OK, great. So as I mentioned previously, 
certain auto manufacturers asked for changes to the emission 
standards. Some have specifically asked for flexibilities under 
the current program. Are you considering providing these types 
of flexibilities or are you also looking at relaxing the 
standards entirely?
    Mr. Pruitt. As part of that midterm review all things will 
be considered.
    Ms. Matsui. OK. NHTSA has made----
    Mr. Shimkus. The gentlelady's time has expired.
    Ms. Matsui. All right. Thank you very much, Mr. Chairman.
    Mr. Shimkus. The chair now recognizes the gentleman from 
South Carolina, Mr. Duncan, for 5 minutes.
    Mr. Duncan. Thank you, Mr. Chairman.
    Administrator Pruitt, thank you for being here today. This 
hearing has been extremely informative to me for learning the 
Trump administration priorities within the EPA and I have to 
say I have been extremely impressed and supportive with the EPA 
thus far under the Trump administration and your leadership. 
You all understand what the intended role of the Agency is and 
have effectively worked to roll back the bureaucratic overreach 
and power abuses of the Agency under the previous 
administration.
    Through cooperative federalism you prioritized what should 
be left up to the states when it comes to both energy and 
environmental matters. The states should be the ones to set 
their own limits in regards to the environment and I thank you 
for understanding the crucial role the states and localities 
play in this process. A quick question about the February 28th 
presidential executive order on Waters of the U.S., could you 
inform me of the status of that AEO?
    Mr. Pruitt. Yes. On February 28th, the President issued an 
executive order asking the Agency to review that definition 
from 2015. We in fact are doing that. There is a two-step 
process presently that is ongoing. One is a proposed withdrawal 
of the Waters rule and that is in the marketplace.
    There is comment being taken upon that, in fact the comment 
period is closed. And we have a substitute definition of what a 
Water of the United States is that will come out sometime in 
April of next year. So there is a substantive replacement that 
is forthcoming and a withdrawal that is already in the 
marketplace that makes up the response to the February 28th 
executive order.
    Mr. Duncan. Thank you. A lot of us were alarmed when we saw 
what was defined as a navigable waterway under the previous 
administration. A lot of times these were ditches that didn't 
hold any water, no stream bed, only had water during a 
significant rain event, but yet they were regulated under the 
Waters of the U.S. and that was to the detriment of the 
developer, the landowner, the farmers, and what not. So I thank 
you and the administration for doing that.
    I want to shift gears to ports. The South Carolina port 
regulated by the Ports Authority in South Carolina, our 
Charleston port, is important. One in every 11 jobs in South 
Carolina is attributed to some sort of port activity. So could 
you explain how under the Trump administration the permitting 
process for ports is carried out in a more timely and efficient 
manner to ensure that these ports continue to maintain, be a 
main economic driver while still protecting the environment?
    Mr. Pruitt. Yes, it is not just a port issue, Congressman, 
but I think the permitting process at the EPA has been very 
inconsistent. I talked about this, this morning, with respect 
to the ten regions and how individuals in Region 8 or Region 6 
are being treated differently than Region 5 and Region 10. And 
so we are trying to get processes in place to ensure that there 
are timely responses.
    A permitting process shouldn't go on for years and years 
and years, and we have many examples at the Agency where, 
literally, the decision on whether to grant or deny a permit 
has taken over a decade. That is entirely unacceptable. And 
what we are doing is trying to set an outside time limit that a 
decision will be made up or down on whether a permit should 
issue.
    In fact, I have been told, I mentioned the chief operating 
officer earlier today, it is our goal by the end of 2018 to 
have processes in place to ensure an answer up or down on 
permits within 6 months as we go forward. So that is something 
states are doing across the country. It is a major undertaking 
at our Agency but we are trying to reform the processes 
internally to provide answers with more clarity and more 
certainty.
    Mr. Duncan. I applaud you for that and I wish this 
committee had jurisdiction over the Corps of Engineers and we 
could encourage them to manage river systems in this country on 
a regional basis instead of a one-size-fits-all. Because I can 
tell you, eastern river systems like the Savannah River system 
is different than western river systems, and how the Savannah 
River Basin is managed from a Corps of Engineers standpoint and 
possibly even an EPA standpoint is different than how a western 
river system should be managed. That is important to my 
district that has core lakes and downstream flows that affect 
Mr. Carter's district.
    So Mr. Administrator, I appreciate you being here. With 
that Mr. Chairman, I yield back a minute of my time.
    Mr. Pruitt. Well, if I may, I really appreciate the comment 
about regional variation, because as we look at the Waters of 
the United States rule as an example, I mentioned this earlier 
today. The states have, North Dakota has something called 
prairie potholes and as I spent time in North Dakota I had 
never seen a prairie pothole. But that is a unique aspect of 
that state that needs to be taken into consideration as we look 
at these issues. So I really appreciate your feedback. That is 
the reason we were reaching out to governors and these DEQs, 
DNRs across the country to make sure that we are making 
informed decisions not only on just permitting, but the 
substantive rules that we are talking about.
    Mr. Duncan. Yes. That is critical. I yield back.
    Mr. Shimkus. The gentleman yields back his time. The chair 
now recognizes the gentleman from Georgia, Mr. Carter, for 5 
minutes.
    Mr. Carter. Thank you, Mr. Administrator. I appreciate you 
being here today very much. Pardon me?
    Mr. Shimkus. My apology, talking to another member here.
    Mr. Carter. No worries.
    Administrator Pruitt, during the last administration, 
toward the end of the last administration there was a rule that 
was titled Greenhouse Gas Phase 2 Rule for Medium and Heavy-
duty Trucks. And in my opinion this had a lot of overreach in 
it because it included regulating truck trailers as self-
propelled vehicles. And I have introduced legislation to deal 
with this and I just wanted to ask you.
    You issued a statement on this rule back in November and in 
that rule you issued a statement on the review of glider kits, 
but you didn't include anything about tractor trailers. Do you 
intend to do that? Are you familiar with this at all?
    Mr. Pruitt. I actually appreciate you bringing it to my 
attention. I was aware of the latter that you mentioned but not 
the former, so that is something that I will definitely take a 
look at.
    Mr. Carter. OK. I appreciate it because it is something 
that is very important to us, particularly to the tractor 
trailer industry which is a big industry down in our area as 
well.
    I also wanted to ask you, in my district in the coastal 
region of Georgia, the entire coast of Georgia I have the honor 
and privilege of representing that area. We have got three 
significant Superfund sites, and very briefly can you just 
bring me up to date where we are at with that with the 
Superfund sites and the status of the program and the 
improvements you may have made with this?
    Mr. Pruitt. Yes. There were 42 recommendations that we 
would be happy to make available to the committee, but in the 
month of May-June timeframe we commissioned this task force to 
evaluate how we can better manage the Superfund portfolio and 
out of that came 42 recommendations. Those recommendations are 
being implemented as we speak and the great progress is being 
made.
    And we are trying to address because there are certain 
areas, and in Portland--I am sorry. I can't recall the member 
that brought it up this morning, but the City of Portland and 
the harbor there were substantial issues. It was a large area 
that was impacted. There was progress that could be made in 
certain parts of the Superfund area and not others. And so we 
made a call to get started on those areas, because what has 
happened historically is that we delayed taking any positive 
action until the entire area had been decided upon on how to 
proceed.
    So we are trying to make those kinds of changes to provide 
clarity to the communities and also ensuring that we are 
hearing the voices of those cities and towns and citizens about 
those decisions. I think that has been neglected in the past. 
So there are many things we are looking at, but ultimately it 
is to ensure that we get outcomes and we get decisive outcomes 
and decisions are made and responsible parties are held 
responsible for the harm they have caused in those areas.
    Mr. Carter. Are there any kind of legislative actions that 
you feel like you need that we would be able to make that would 
help you in that area?
    Mr. Pruitt. It is a good question because in the 
brownfields program as an example this body has been very, very 
successful with respect to changes in the brownfields program. 
I think there are some reusability opportunities with respect 
to Superfund sites, sites that are more marketable going 
forward. Ultimately, our goal in the Superfund portfolio should 
be to remediate those sites, protect human health, and see 
those sites redeemed as far as using them going forward. And so 
there may be some things we can work on together to adopt a 
brownfields kind of approach to some of the Superfund areas 
within the portfolio.
    Mr. Carter. Good. As I mentioned before, I represent the 
entire coast of Georgia, over a hundred miles of coastline. So 
as you can imagine, we have a lot of boaters in that area and 
our office has been getting a lot of calls about the tiers of 
engine classes that are available for specialized boats 
particularly among the harbor pilots and the bar pilots. They 
are having a lot of trouble with the lack of flexibility that 
is in the framework.
    They have got situations where we have heard requirements 
of them forcing people to, in the scenarios where the 
manufacturers don't necessarily make an appropriately tiered 
engine for a boat type and they are having a lot of trouble 
with this and it is causing them problems with being able to 
order these boats. Are you familiar with this or is this 
something that you have been addressing at all?
    Mr. Pruitt. It is not something that I have been privy to 
as far as discussions at the Agency, but I would be happy to 
look at it.
    Mr. Carter. OK. And if it is OK I would like my office to 
be able to send you this information so that you can review it 
because it is a serious problem down here. They want to comply 
and they want to do this to do the right thing, but they need 
some flexibility with it as well.
    Mr. Pruitt. OK.
    Mr. Carter. Thank you, Mr. Administrator. One last 
question, as I understand it, Mr. Administrator, you are from 
Oklahoma; is that correct?
    Mr. Pruitt. Yes, sir.
    Mr. Carter. Can you say Go Dawgs?
    Mr. Pruitt. It is hard. It is hard.
    Mr. Shimkus. I think the gentleman is out of order.
    Mr. Carter. Out of order.
    Mr. Pruitt. Yes, Boomer Sooner comes out easier.
    Mr. Carter. Thank you, Mr. Chairman. I yield back.
    Mr. Shimkus. The gentleman yields back his time. The chair 
now recognizes the gentleman from Mississippi, Mr. Harper, for 
5 minutes.
    Mr. Harper. Thank you, Mr. Chairman.
    And thanks so much for being here, Administrator Pruitt, 
and congratulations on a great, almost 10 months I guess that 
you have been in this role. And while I was born in 
Mississippi, my late father was born in Altus, Oklahoma and 
grew up there, so we have a great affinity for the State of 
Oklahoma in my household. So I appreciate you taking the time 
to be here and go through this.
    Yesterday, I was appointed chairman of the Subcommittee on 
Oversight and Investigations here in Energy and Commerce, an 
important responsibility that I will now have and I certainly 
don't take that lightly. Many of the matters that we have 
reviewed and will review will concern the EPA.
    While I cannot comment on the minority's interest and 
agenda, I can pledge to my colleagues across the aisle and to 
you that I will work with you when at all possible and that in 
the weeks ahead I will be reviewing available information with 
the chairman of the full committee and committee staff to 
determine our oversight agenda regarding the many agencies 
under the committee's jurisdiction including EPA.
    I will also work closely with the chairmen of the other 
subcommittees to identify issues we think deserve focus and 
attention. In addition, I wanted to emphasize that as with all 
agencies in the committee's jurisdiction, we do anticipate and 
expect that the EPA will cooperate with our inquiries and I 
hope you, Administrator Pruitt, will respect our constitutional 
prerogatives and will be fully responsive to our inquiries and 
requests for information, and I assume we can count on that.
    Mr. Pruitt. Yes, Congressman.
    Mr. Harper. Thank you.
    Mr. Pruitt. And it is good to meet you and I am glad to 
hear about your connection to Altus.
    Mr. Harper. Thank you so much. The Obama administration's 
EPA rule on wood heaters had two steps. Step one took effect in 
2015 that reduced emissions up to 90 percent. Step two is 
scheduled to take effect in 2020 and will reduce emissions a 
bit more. The 2015 step one has already gone into effect.
    But the wood heater industry, many of them are having great 
difficulty developing models that meet the 2020 step two 
standards. So one of the things we have looked at is giving 
more time in a matter that was actually marked up yesterday to 
extend that by 3 years. Do you believe that it makes sense to 
give this industry a little more time to meet the step two 
standards rather than seeing companies going out of business 
and letting workers go?
    Mr. Pruitt. Well, I think it is always helpful, 
Congressman, in response to your question, for Congress to 
provide those kinds of direction to the Agency, and I am glad 
to hear and encourage that this body is looking at that to give 
us the path forward in that regard. And as that occurs we will 
make sure we work with you to address the issue.
    Mr. Harper. Many of the customers for these wood heaters, 
many of them will be in the rural areas, many low-income 
individuals or households. So, it is a feeling I would assume 
that you would agree that the EPA needs to make sure that its 
rules don't drive up prices unnecessarily.
    Mr. Pruitt. All those things have to be considered in the 
regulatory process, but I very much appreciate the 
congressional response as well on those deadlines.
    Mr. Harper. One last thing in the time we have. Last week, 
the Oversight and Government Reform Committee held a hearing on 
the Regulatory Reform Task Force. During the hearing, Deputy 
Associate Administrator Bolen testified that retrospective 
review of regulations was nothing new to EPA. What are some 
regulations that have been repealed and what are some others 
that have been proposed but maybe not yet finalized?
    Mr. Pruitt. Goodness. Are you talking about Brittany Bolen?
    Mr. Harper. Yes.
    Mr. Pruitt. And I am not sure. I haven't reviewed her 
testimony, but are there any specific rules or areas that you 
are concerned about?
    Mr. Harper. Just wondering if there is something that you 
have got on your radar that we need to be aware of that you are 
looking at.
    Mr. Pruitt. I think that we have been very, regulatory 
reform pursuant to the executive order and that task force is 
something that I think is going to be ongoing as we head into 
2018. The agenda that we have spelled out there is very 
apparent and I think we have addressed some of those here 
today.
    If there are certain rules or regulations that are of 
concern to you or others on the committee, we look forward to 
that discussion but I can't point to any particular one that 
hasn't been discussed already. My apologies in that regard, 
but.
    Mr. Harper. Administrator Pruitt, we want to thank you for 
your time and your insight. We look forward to working with you 
in the years ahead. Thank you.
    Mr. Pruitt. Thank you, Congressman.
    Mr. Shimkus. The gentleman yields back his time. Just an 
announcement of my apologies to my colleagues who have been 
here for a long time, the committee rules dictate that members 
who don't serve on the committee go by seniority on the full 
committee. So with that I recognize the gentleman from 
Illinois, Mr. Rush, for 5 minutes.
    Mr. Rush. I want to thank you, Mr. Chairman.
    And I want to thank you, Administrator Pruitt, for your 
attendance here. After your confirmation hearing in January you 
were submitted questions for the record asking you to define 
environmental justice and whether you considered it a serious 
issue. And in your response you seemed to give the issue, in my 
opinion, short shrift as you reported as saying that you were 
``familiar with the concept of environmental justice.''
    You then went on to say in a vague way, and I quote you 
directly, ``the administrator plays an important role regarding 
environmental justice.'' And this statement you repeated 11 
times in your written response. Then a few months later, after 
you took over the Agency, the former Assistant Associate 
Administrator for Environmental Justice, Mr. Mustafa Ali, an 
individual who worked with my office on several occasions, Mr. 
Ali resigned in March after 24 years of service stating that he 
did not see any indication that you or the rest of the 
Administration are interested in any way in helping vulnerable 
communities.
    I just want to say this is deeply disturbing to me because 
as you know protecting these communities is an essential aspect 
of the EPA's mission and is one that appears to have been, in 
my opinion, summarily neglected. So Mr. Administrator, how 
would you prioritize EPA's responsibility to protect the 
nation's most vulnerable populations from pollution? Is it a 
high, medium, or low priority? How would you define it?
    Mr. Pruitt. Congressman, thank you for your comments. And 
let me say to you it is a priority and I will give you 
feedback.
    Mr. Rush. Is it a high, medium, or low priority?
    Mr. Pruitt. It is a very important priority at the Agency, 
and I will give you an example. East Chicago, an area that I am 
sure you are familiar with, with respect to a Superfund site 
there, there are threats to water supply and there is a 
community in East Chicago that has faced those threats for a 
number of years.
    I traveled to East Chicago, met with members of the 
community there that make up the constituency group, those that 
have not had a voice in some of these areas, and met with them 
about a progress and an answer on that East Chicago area. In 
fact, we have sent staff there multiple times since I left to 
ensure progress. So it is something that I consider an 
important priority.
    I met with internal members of our team as recently as 
yesterday, the NEJAC group that meets internal to the EPA on 
environmental justice, and we talked about these very issues of 
making sure that individuals who historically have not had 
voice to impact outcomes with respect to Superfund or other 
issues that we take that seriously and actually take that into 
account going forward. So it is something that is an important 
priority going forward.
    Mr. Rush. So it is an important priority, all right. The 
record shows that you--let me ask you another question then. 
The record shows that you have met either in person or by phone 
with the API on at least three different occasions, on the 28th 
of June, on the 29th, and also on the 6th of November. My 
question to you, there is as an individual who is a scientific 
advisor for the API and her name is Ms. Una Blake. Are you 
familiar with this individual?
    Mr. Pruitt. The name doesn't sound familiar, Congressman.
    Mr. Rush. So have you had any occasion to discuss her 
position on hydraulic fracturing? She indicated that hydraulic 
fracking is a health benefit to minority communities, to 
African American communities specifically and this is in 
contrast to NAACP study that found that many African American 
communities face an element of risk of cancer due to air toxic 
emissions in natural gas. Are you familiar with the NAACP 
study?
    Mr. Pruitt. The person to whom you refer, I am not familiar 
with that person. So I am sorry.
    Mr. Shimkus. The gentleman's time has expired. The chair 
recognizes the gentleman from Virginia, Mr. Griffith, for 5 
minutes.
    Mr. Guthrie. Thank you very much, Administrator Pruitt. I 
also want to thank you personally for meeting with me earlier 
this year to discuss some of the issues in the 9th 
congressional district of Virginia, and I appreciate that you 
will continue to work on those. One of those that I think that 
we talked at that time but I want to discuss again today dealt 
with the EPA's regulations affecting medium and heavy-duty 
vehicles. Now the problem that I have is that the prior 
administration wanted to regulate both the tractor and the 
trailer.
    But the code says that the motor vehicle which is the area 
where the authority comes from, the term motor vehicle means 
any self-propelled vehicle designed for transporting persons or 
property on a street or highway, and of course a trailer is not 
self-propelled. It has to have the tractor component and we 
make both in my district. I have Volvo which makes the tractor 
and then I have companies that make the trailers and about 
2,000 employees just making trailers in my district. So it is a 
very important question.
    And so I guess what I have to ask is, is that with that 
reading of the law--and look, I have to applaud you all for 
agreeing to reconsider those regulations overall, but at some 
point the EPA needs to either acknowledge that there is no 
authority over the trailers or come and ask Congress for that 
authority. Do you know how long it will take before you get to 
that point?
    Mr. Pruitt. And I agree wholeheartedly. It is one of those 
areas where the text of the statute is something that governs 
whether we have authority or not and we need to provide clarity 
on that and do it soon and advise Congress if there is a 
deficiency. So I agree wholeheartedly with your position.
    Mr. Griffith. Well, I appreciate that. In fact, one of the 
folks there before said that since you had to have goods in the 
trailer to move anything that that is how they got authority. 
And I made the analogy at the time, well, that gives the EPA 
the authority to restrict the weight of the driver because you 
can't drive at least at this point until we get to the 
driverless trucks. At this point you have still got to have a 
driver in the truck and if you are going to get to weights and 
that kind of thing on things that aren't self-propelled motor 
vehicles then you can do anything.
    All right. I do want to talk about some New Source Review 
issues and I am concerned that the EPA has been using New 
Source Review programs inappropriately in the past as a weapon 
against coal-fired power plants using enforcement actions to 
change the way the program is supposed to work and making it 
hard for these plants to do the type of maintenance projects 
that are needed to keep them running reliably and efficiently.
    I have introduced legislation to address this problem. A 
lot of us are hoping that you will help on this. Can you give 
me some yes or no answers to the following questions? One, EPA 
has taken New Source Review enforcement actions against coal-
fired power plants because they have taken steps to become more 
efficient. Are you aware of this?
    Mr. Pruitt. I am.
    Mr. Griffith. And do you think that this is the way the 
program is supposed to work?
    Mr. Pruitt. I don't.
    Mr. Griffith. To be more efficient?
    Mr. Pruitt. I don't.
    Mr. Griffith. Do you think that a power plant should be 
required to go through a long and costly permitting process 
before it can do something to improve its efficiency including 
less pollutants?
    Mr. Pruitt. I don't.
    Mr. Griffith. And do you believe that such a requirement 
might actually discourage plant owners from doing things to 
make their plants more efficient?
    Mr. Pruitt. In fact it is happening across the country. And 
I would say to you, Congressman, we have a task force. I 
mentioned earlier today that Bill Wehrum, who is an AA for air 
recently confirmed, there is a task force internal to the 
Agency to address NSR steps going forward in 2018. It is a very 
important area as you have indicated. There are companies 
across this country that seek to invest capital to improve 
emissions and they are very concerned if they do that it will 
trigger new permitting requirements and it is a disincentive. 
And that is not the way that it should work and we are trying 
to address that and believe it is a very important issue.
    Mr. Griffith. Well, I appreciate that and look forward to 
working with you on that issue because I do believe it is a 
very important issue. And while I do represent a coal district, 
it is also, I think, important for those who are concerned 
about pollution because we are going to continue to need coal 
well into the future at least at some percentage level to keep 
our grid reliable. And as we use that coal we want to do it 
more cleanly and more effectively and more efficiently and to 
discourage people from taking on the new technology because it 
might put them out of business is not a good idea.
    Mr. Pruitt. We should remember that this is really an issue 
that affects all utility companies that seek to invest monies 
to improve emission outcomes. We celebrate that and encourage 
that. We don't want there to be disincentives in place to 
impact that adversely.
    Mr. Griffith. And I know the technology is changing. I am 
going to switch gears on you a little bit. I know the 
technology has changed, but I would like to allay some people's 
fears. Every rock, every rock system is a little bit different 
and I know that too, but they have been fracking in my district 
for probably about 40, 45 years. And so for those people who 
are afraid of it, if you have the right rock and you are taking 
a look at the ingredients that are being put into that rock, I 
think it can be done very safely.
    Mr. Pruitt. To your point, Congressman, hydraulic 
fracturing itself is not new technology. It has been around for 
decades. And the uniqueness, the shale revolution that has 
occurred is largely because of horizontal drilling combined 
with the fracking process. So----
    Mr. Shimkus. The gentleman's time has expired. The chair 
will now recognize the gentlelady from Illinois, Ms. 
Schakowsky, for 5 minutes.
    Ms. Schakowsky. Thank you, Mr. Chairman. I appreciate being 
allowed to be at this hearing today.
    Thank you, Secretary Pruitt. I have a number of questions 
so I am going to try and push through these. Last Congress, 
Assistant Administrator McCabe appeared before the subcommittee 
on Digital Commerce and Consumer Protection--I am the ranking 
member there--to discuss EPA and NHTSA technical assistance 
report, the technical analysis that supported the decision to 
retain EPA's greenhouse gas standards for the 2022 to '25 model 
year cars and light trucks. You reopened the midterm review 
after receiving a request from the auto industry in February, 
and I have a number of questions that may help me understand 
why you agreed to their request.
    So first, let me ask you this. Is there a revised technical 
report that you used as a basis for reopening the midterm 
review of the EPA fuel efficiency standards?
    Mr. Pruitt. The reopening, Congresswoman, was to keep 
consistent with what was committed on the midterm review when 
it was supposed to happen initially. It was supposed to occur 
April of 2018. This was not a change of that date, it was just 
a commitment to keep the date that was agreed to at the 
beginning.
    And that date was not--actually accelerated by the previous 
administration, December of '16, January of '17, so this was 
just restoring order to the process to make sure that the 
original date was upheld and enforced and it occurred in the 
time it was supposed to occur initially.
    Ms. Schakowsky. OK. So you are saying there were no changes 
and is that already closed now again?
    Mr. Pruitt. No, the review is ongoing. But the review is 
ongoing because the initial commit was April of 2018. So this 
is a restoration of process to say that the midterm review 
should occur pursuant to April 2018 as originally discussed.
    Ms. Schakowsky. Well, my understanding is that it was 
already approved in the last Congress. So in answer to my 
question, is there a revised technical report that you used as 
a basis for reopening and is it----
    Mr. Pruitt. The Agency accelerated the review process 
inconsistent----
    Ms. Schakowsky. All right.
    Mr. Pruitt [continuing]. With the original understanding 
and this was a restoration of that process.
    Ms. Schakowsky. So let me ask you this. I would like to 
know if you agree or disagree with the information your agency 
provided to us at that time, that is, last Congress. I don't 
have any----
    Mr. Pruitt. What timeframe is that? What timeframe would 
that be as far----
    Ms. Schakowsky. So that was in September of 2016. Do you 
agree or disagree with the information that your agency did 
provide, now your agency, provided to us at that time?
    Mr. Pruitt. I think my comment is what I said earlier, 
Congresswoman. It is consistent with the commitments were made 
that the midterm review would occur in April of 2018.
    Ms. Schakowsky. OK. So I am a bit confused, because Ms. 
McCabe testified that the EPA found that fuel efficiency 
technology development was moving faster than they had expected 
and is being implemented in the early years of the program. Has 
this finding changed?
    Mr. Pruitt. I am not aware, Congresswoman.
    Ms. Schakowsky. The EPA found that to meet the proposed 
standards automakers do not have to manufacture and sell large 
numbers of hybrids and electric vehicles. The Agency projects 
that the 2022 through '25 standards can be met largely with 
more efficient gasoline powered cars. Has this finding changed?
    Mr. Pruitt. That will be part of the review that occurs in 
April of '18.
    Ms. Schakowsky. So all of these are dependent on a review 
that was opened earlier than expected. In other words you 
decided----
    Mr. Pruitt. The Agency concluded their process, 
Congresswoman, inconsistent with the original timeframe that 
was established and we have restored that process. So this 
review that you are referring to will occur and culminate in 
April of 2018.
    Ms. Schakowsky. OK, so we are going to be interested then. 
And the transportation sector accounts for a third of the total 
greenhouse gas emissions in the United States. With light-duty 
truck vehicles making up more the 60 percent of the emission 
standards in that sector, the EPA found in that original review 
that these standards are a critical part of any program to 
reduce greenhouse gases. Would you agree and do you expect that 
that finding may change?
    Mr. Pruitt. The progress made in the mobile source category 
has been significant and the auto industry has made significant 
progress over the years. That is why the process matters and we 
are going to go through that and it will culminate in April of 
'18.
    Ms. Schakowsky. And EPA and NHTSA found that the average 
cost increase for a car by 2025 due to the standards will be 
about $1,200 and that that cost would be offset by an estimated 
fuel cost savings of about $1,900. Are you aware of that 
finding that there would actually be a savings in the cost of a 
car?
    Mr. Pruitt. The vehicle emissions and efficiencies are 
dramatically more than people anticipated several years ago so 
there has been great progress as I indicated.
    Ms. Schakowsky. The gentlelady's time has expired. The 
chair now recognizes the gentleman from Florida, Mr. Bilirakis, 
for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it. 
Thanks for letting me sit in on the subcommittee as well. And I 
thank you for your testimony, Administrator, and your patience.
    Administrator Pruitt, this subcommittee recently held a 
hearing regarding the status of the hurricane response in 
Florida, Texas, Puerto Rico, and the Virgin Islands. A key 
issue of concern was how EPA addressed the Superfund sites both 
in advance of and in the wake of the hurricanes. This is a big 
priority for me because in my district I have the Stauffer 
Chemical Company Superfund site.
    I want to thank you for having your staff be so responsive 
again during and leading up to the hurricanes as well. I 
appreciate that very much. Can you walk us through EPA's 
process to secure Superfund sites before and after a hurricane 
and how does EPA coordinate with state and local agencies?
    Mr. Pruitt. Thank you, Congressman. And there are 
assessments that are made in conjunction with governors, 
Governor Abbott in Texas, the Florida governor, Governor Scott. 
That is going to be bad because he is going to call me a little 
bit later.
    Mr. Shimkus. And I knew it. I am from Illinois, so.
    Mr. Pruitt. The governor of Florida and the governor of 
Texas, we were in conversations with them leading up to the 
hurricanes in both instances to talk about how to secure those 
sites. So you have conversations that are ongoing with 
responsible parties, the governors in those states, the DEQ, 
DNR at the state level.
    There is a pre-assessment on whether proper steps are being 
taken to secure those sites, and there is constant evaluation 
during the storms. And then postscript a determination whether 
there has been any release. So it is both a pre-, during, and 
post process that occurs with those states and members of our 
agency.
    Mr. Bilirakis. OK, thank you. Again the Stauffer----
    Mr. Pruitt. Governor Scott is a great governor.
    Mr. Bilirakis. And Governor Scott--I will repeat it. 
Governor Scott is a great governor and did a great job during--
--
    Mr. Pruitt. He is. And I will say he showed tremendous 
leadership. In fact, I will tell you with respect to the fuel 
waivers that occurred, access to fuel is a key issue for 
citizens during those kinds of storms and working with Governor 
Abbott in Texas and Governor Scott in Florida we were able to 
address that in a proactive way to ensure better access to fuel 
during those storms and Governor Scott was a tremendous leader 
in that regard.
    So I really commend his leadership, the leadership of the 
State of Florida, the DEQ there, but also in the State of Texas 
as well.
    Mr. Bilirakis. Ditto. I agree. OK, the current status of 
the Stauffer site, the Superfund site that I referred to 
earlier, is better than most of the sites on the national 
priority list in that the remedy is largely in place and the 
most recent 5-year review found that the remedy was protective 
of people and the environment. I know that not all sites on the 
National Priorities List are in such good shape. I have a 
couple questions for you about the Superfund cleanup program if 
I may. Number one, how does EPA plan to work through the sites 
on the National Priorities List and how does EPA prioritize 
existing sites on the National Priorities List?
    Mr. Pruitt. We have had some changes at the Agency to 
address sites that are over $50 million, because historically 
regions have been the primary place where that has been decided 
and we have had inconsistency on large sites based upon it 
being a region by region evaluation. And so what we did is 
institute a change that on sites of over $50 million, that 
would actually be a decision made at headquarters to ensure 
greater consistency and uniformity and urgency to address those 
sites.
    So that is ongoing based upon the task force 
recommendations that came out in June of this year, as I 
previously referred to that. And the other thing we are looking 
at is to ensure that if we have sites as I indicated earlier 
that have the ability to be cleaned up partially, where it is a 
large site and we can make progress, instead of waiting until 
there is a remedy or proposed remedy for the entire site, we 
are trying to address those hot spots, if you will, throughout 
the process to get some clarity and success, if you will, 
through the cleanup process. So those are just a couple of 
examples.
    But the Superfund program, overall, in my view, has lacked 
a sense of focus, a sense of leadership and management over 
making decisions. It is really unacceptable for an agency to 
take decades to make a decision on how you clean up sites. I 
would love to tell you that that is an isolated situation at 
the Agency. It has not been historically.
    I have had individuals in the Land and Emergency Management 
Office that have been in EPA for a number of years that really 
appreciate how we have vitalized that area and really focused 
in this and they look forward and are actually making a 
difference in as early as the time we have been in there.
    Mr. Shimkus. I am going to ask my colleague to yield back 
that time so we can get--and also make an announcement that 
they are going to call votes real soon. We are going to try to 
drive through our last colleagues. And with that----
    Mr. Tonko. Mr. Chair?
    Mr. Shimkus. Yes.
    Mr. Tonko. Yes, just quickly. If I might ask the Fumes 
Across the Fence-Line issued by the Clean Air Task Force and 
NAACP referenced by Congressman Rush be entered into the 
record.
    Mr. Shimkus. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. And the very patient Kathy Castor is 
recognized for 5 minutes.
    Ms. Castor. Well, thank you, Mr. Chairman.
    Mr. Pruitt, I appreciate the work that the EPA 
professionals out of Region 4, the work they did before and 
after Hurricane Irma, so thank you for that.
    Mr. Pruitt. They worked very diligently.
    Ms. Castor. But clean water and clean air are vital to our 
economy in Florida. And I had to choke a little bit when you 
called our governor a great governor, because one of the 
things--and I wasn't going to mention this. One of the things 
he has done is to deny the rising cost of the changing climate. 
Florida is probably one of the most impacted states when it 
comes to that, looking at flood insurance, property insurance, 
property taxes from these extreme weather events and 
hurricanes.
    And I hope that EPA was not taking a page out of Governor 
Scott's book. Governor Scott at one point prohibited folks at 
our environmental agencies from using the term climate change 
at all and also scrubbed websites. And now you have an 
unfortunate, now you are laying down that same legacy and I 
think that is unfortunate as well. To be great you have to 
great things and work in the public interest and not for 
private interests. And----
    Mr. Pruitt. I think the Governor did exercise tremendous 
leadership during the hurricanes. And----
    Ms. Castor. On climate he has been a denier and that is a 
problem and that is going to cost us dearly in the State of 
Florida. Mr. Pruitt, prior to becoming administrator of EPA you 
served as attorney general of Oklahoma. In that role you sued 
the EPA repeatedly, in fact, 14 different times fighting clean 
air protections, fighting clean water protections.
    And interestingly, the CEO of one private company, Murray 
Energy, was a co-plaintiff in 8 of the 14 lawsuits. You also 
acted with other energy companies and special interests such as 
Peabody Energy, Southern Power Company, the American Fuel & 
Petrochemical Manufacturers, Oklahoma Gas & Electric, and 
others. How many of these groups have you met with during your 
10-month tenure at the EPA?
    Mr. Pruitt. Look, the claims that were made by those 
companies were separate from the claims of the states----
    Ms. Castor. No, just answer that question because we have 
limited time.
    Mr. Pruitt [continuing]. And the state interest.
    Ms. Castor. How many times have you met with those 
companies?
    Mr. Pruitt. I don't know, Congresswoman.
    Ms. Castor. All right, so please submit that information 
for the record. These groups also reportedly contributed money 
to you or your political action committees. Murray Energy CEO 
Bob Murray was a top donor to your Super PAC. In fact, 
according to the National Institute on Money in State Politics, 
you have received over $345,000 in campaign contributions from 
these fossil fuel interests.
    You previously served two terms as chairman of the 
Republican Attorneys General Association, correct?
    Mr. Pruitt. That is correct.
    Ms. Castor. And Murray Energy donated not only to your 
Super PAC but also to the RAGA. In fact, in 2014, press report 
describes a ``secretive alliance between energy firms and 
attorneys general,'' according to this report, under your 
leadership at the RAGA that set up a separate entity called the 
Rule of Law Defense Fund which could accept unlimited anonymous 
donations from companies benefiting from your lawsuits.
    Under this arrangement, fundraising reportedly skyrocketed. 
The report also states that ``the work in Mr. Pruitt's office 
has sometimes seemed to blur the distinction between his 
official duties and the advancement of his political career.'' 
And I have to be frank. Many of us are very concerned that you 
continue to blur the distinction between your official duties 
and your political ambitions. You pledged that while you are 
administrator you would recuse yourself from any active cases 
where Oklahoma is a party/petitioner/intervener; is that 
correct?
    Mr. Pruitt. I have, in fact.
    Ms. Castor. So given your extensive history of suing the 
Agency you now oversee and the vast amounts of money you have 
raised from the fossil fuel industry, offering to recuse 
yourself from only active cases and only cases from where 
Oklahoma, itself, is a party is grossly inadequate. So will you 
commit to recusing yourself from cases involving your past co-
litigants and donors to the Rule of Law Defense Fund?
    Mr. Pruitt. It has not been inadequate according to the 
ethics official at the EPA who is a career employee. And that--
--
    Ms. Castor. So you are saying you will not commit today?
    Mr. Pruitt. I follow the advice of counsel.
    Ms. Castor. So yes or no, you will not----
    Mr. Pruitt. Mr. Chairman, if I may.
    Mr. Shimkus. The time is the gentlelady's from Florida, so.
    Ms. Castor. So I understand----
    Mr. Pruitt. If I may.
    Mr. Shimkus. Well, let the gentlelady ask her question.
    Ms. Castor. So if you cannot do that you will cement your 
legacy as one who serves the powerful special interests and not 
the public interest. I am also deeply concerned that you have 
not recused yourself from regulatory proceedings on specific 
rules you have previously targeted despite the fact that your 
position on the issue is clearly already established. Will you 
commit to recusing yourself from rulemakings and other 
regulatory actions that were the subject of your past lawsuits?
    Mr. Shimkus. The gentlelady's time has expired. The chair 
now recognizes the gentleman from Maryland for 5 minutes.
    Ms. Castor. He can answer that.
    Mr. Shimkus. The gentlelady's time has expired. The chair 
recognizes the gentleman from Maryland.
    Mr. Pruitt. No, you don't, Congresswoman. These issues have 
been addressed by the ethics official at the EPA.
    Mr. Shimkus. The gentleman will suspend. The chair 
recognizes the gentleman from Maryland.
    Mr. Sarbanes. Thank you, Mr. Chairman. Thank you for being 
here, Mr. Pruitt, and staying until the end.
    President Trump has promised the American people he and his 
administration would drain the swamp in Washington, overturn, 
``decades of special interest dealing.'' Do you agree that as 
EPA administrator your job is to protect public health and the 
environment by serving the public interest and not wealthy 
special interests?
    Mr. Pruitt. A very key mission of the Agency.
    Mr. Sarbanes. Yes.
    Mr. Pruitt. Yes.
    Mr. Sarbanes. That is a yes answer. The Democracy Reform 
Task Force, which I am privileged to chair, has been monitoring 
the Administration's progress with respect to draining the 
swamp. And as you might suspect from the title of our most 
recent report, it is still swamped and it is only getting 
deeper. We didn't want to do this report, but we felt compelled 
to do it when we looked at all of the ethical lapses that exist 
within this administration.
    On March 30th you met with CropLife America which is a 
trade association run by several large pesticide companies 
including Dow Chemical; is that correct?
    Mr. Pruitt. If that is what the calendar reflects.
    Mr. Sarbanes. OK. This was a day after you denied a 
science-based petition to ban a widely used pesticide tied to 
developmental delays in children and that action was strongly 
supported by Dow Chemical, which I will mention donated a 
million dollars to President Trump's inaugural committee. On 
April 26th you met with Southern Power, one of the nation's 
largest coal-burning utilities, and had dinner with Alliance 
Resource Partners, a major coal mining company. Is that also 
correct?
    Mr. Pruitt. If that is what the calendar reflects.
    Mr. Sarbanes. Well, I think that is what the calendar 
shows. Since then, the EPA has announced that the Agency will 
consider rolling back rules that protect mining communities 
from toxic coal ash, and Alliance Resource Partners CEO donated 
almost $2 million to elect the President. I am not mentioning 
this stuff as a gotcha thing. I am mentioning it because it 
really makes a lot of Americans anxious when you consider the 
conflicts of interest that this suggests.
    Let me turn now to a topic of importance to my home State 
of Maryland, if I can, the Chesapeake Bay Program. In your 
confirmation hearing before the Senate Environment and Public 
Works Committee, you commended the state and federal 
partnership to restore the Chesapeake Bay and you committed to 
enforcing the Bay pollution diet or the TMDLs; is that correct?
    Mr. Pruitt. That is correct. In fact, Senator Cardin and I 
had wonderful conversations during that process.
    Mr. Sarbanes. Yes, I am going to get to that conversation 
you had with the senator. Despite the fact that as Oklahoma 
attorney general you sued the EPA challenging the Bay TMDLs 
previously, you also pledged with Senator Cardin that you would 
support the federal government's role in Chesapeake Bay 
partnership through funding critically important programs and 
supporting the grantmaking role of EPA; is that correct?
    Mr. Pruitt. Yes.
    Mr. Sarbanes. You would say that is correct. And yet if you 
look at the President's fiscal year 2018 budget, it completely 
eliminated the Chesapeake Bay Program at EPA. Now we have 
pushed back against that, but that is hardly a follow-through 
on the pledge that you made to Senator Cardin and the 
statements that you made about the Chesapeake Bay Program. So 
that is not standing up and enforcing the TMDLs, making the 
grants that we need to support Bay restoration. It appears 
rather that under your leadership that commitment is being 
zeroed out.
    Mr. Pruitt. I think, Congressman, that the comments that I 
made during the appropriations process should also be 
referenced, which I spoke to members of this body as well as 
the members of the Senate on the very issue and expressed my 
commitment.
    Mr. Sarbanes. I appreciate that. What I guess I am looking 
for is a follow-through on the original commitment that you 
made in the sense of fighting back inside the Administration 
and saying programs like the Chesapeake Bay Program are 
valuable, the funding needs to be there. Don't just rely on 
Congress to restore these things, which by the way we have 
tried to do on a bipartisan basis demonstrating the commitment 
to the program here----
    Mr. Pruitt. Those discussions happen.
    Mr. Sarbanes [continuing]. But become an ally of ours----
    Mr. Pruitt. Those discussions in fact have taken place 
historically.
    Mr. Sarbanes [continuing]. In that respect. OK. Well, I 
appreciate you continuing to do that. Let me finish real 
quickly to speaking to Executive Order 13770, which relates to 
ethics commitments by executive branch appointees, which 
requires, ``every executive agency appointed on or after 
January 20th, 2017, agency employee to be contractually 
committed to an ethics pledge;'' is that correct?
    Mr. Pruitt. Yes.
    Mr. Sarbanes. Yes. And that pledge stipulates that 
Administration appointees are prohibited for 2 years from the 
date of their appointment from participating in any matter 
involving specific parties that is directly or substantially 
related to the former employer or former clients including 
regulations and contracts.
    Executive Order 13770 states that appointees have a 2-year 
cooling off period in terms of handling matters related to 
their previous lobbying. But I am concerned that several of 
your personnel decisions deviate from those guidelines. There 
is a growing list of appointees at EPA that appear to have 
substantial conflict.
    Mr. Shimkus. The gentleman needs to wrap it up.
    Mr. Sarbanes. So I hope that you will bring some real 
attention to these conflicts as we move forward and I yield 
back my time. I thank the chairman for allowing us to 
participate off the committee and I would ask for unanimous 
consent to submit these Still Swamped----
    Mr. Shimkus. Yes. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. And you are welcome. The chair recognizes the 
gentleman from Iowa, Mr. Loebsack, for 5 minutes.
    Mr. Loebsack. Thank you, Mr. Chair. I do appreciate the 
opportunity to be here today.
    And Administrator Pruitt, I am sorry I haven't been able to 
meet you yet, even though I am from Iowa and I know you were 
just there last week. Thank you for coming to Iowa. I am sure 
that you heard a lot about the RFS while you were there. I know 
you have heard a lot about it since you have been 
administrator. We have bipartisan concerns in Iowa, as you well 
know, about the RFS in making sure that the Administration 
lives up to what the RFS demands and what the statute says we 
should be doing. And I am a Democrat but I also held the Obama 
administration accountable. I probably wore my Do Not Mess with 
the RFS button to the White House on one occasion and talked 
about that with folks there.
    The renewable fuels industry as you know, including 
biodiesel, supports over 40,000 jobs in Iowa. And simply put, I 
think the RFS works for Iowa. I think it works for America. I 
think it works to make sure that our economy grows when it 
comes to jobs. I think it works for our environment. And there 
is no question that it works for our energy security, because 
when we are able to produce biofuels I think that contributes 
to a reduction in our dependence on foreign oil and I think 
that is really, really critical. It is a security issue as much 
as it is an economic issue.
    During your confirmation hearing, you affirmed without 
question your belief that Congress intended for the RFS to 
increase the amount of renewable fuel blended into our 
transportation fuel supply, yet on November 30th as you know 
you finalized the 2018 RVO that lowers the amount of cellulosic 
biofuels called for in the statute and flatlines biodiesel 
volumes. I have the numbers in front of me here as well.
    How can you explain these actions when it is clear that 
these two industries have enormous potential for growth?
    Mr. Pruitt. By the way, Congressman, the visit to Iowa last 
week was very good. I enjoyed the conversation with your 
constituents. I met with my farmers and ranchers on this issue 
along with others and it was a very good dialogue. And I think 
as you look at the volume obligations you reference cellulosic, 
as you know under the statute there is a waiver authority that 
is given to the EPA to address production levels. The most we 
have ever produced domestically is around 190 million, 190 
million gallons of cellulosic. The Agency has routinely set 
those levels higher than that and we did this year as well. I 
think it was around 280 million gallons of cellulosic. So it is 
in excess of production levels that we have seen.
    Mr. Loebsack. After you increased it by 50 million over 
your previous proposal, the light proposal.
    Mr. Pruitt. That is right.
    Mr. Loebsack. But actually it is down 23 million from last 
year.
    Mr. Pruitt. It is, but it is----
    Mr. Loebsack. Far short of what the statute calls for.
    Mr. Pruitt. But the statute calls for billions of gallons 
to be--and that waiver authority is there for a reason. 
Congress gave it to us to address real market issues, 
production and demand, and that has been utilized in that area. 
With biodiesel we did keep it flat. There is some consideration 
that it is 2.6 billion as far as capacity, but we never 
breached the 2.1 billion in production. In fact, we imported 
about 700 million gallons last year from Argentina. So that is 
the reason those were flatlined and we discussed those numbers 
in Iowa last week.
    Mr. Loebsack. And a lot of us that issue is with the logic 
of what you are saying, and I understand what you are saying 
and I have heard that from Gina McCarthy as well as from you. 
But I think a lot of us in Iowa and other places have real 
concerns about the logic of those statements. I will move on.
    When it comes to the Reid vapor pressure issue, I know that 
is something that EPA is looking into. I have introduced 
legislation along with Adrian Smith, bipartisan legislation--
that is what is great about the RFS, I think, is we have 
bipartisan support for the RFS--to lift the restrictions on the 
sale of E15 in the summer months. I am a strong supporter of 
doing that.
    And this is something as you know that will put more 
biofuels into the market. It will help to stabilize the RIN 
market as well, I believe, create jobs, support farmers, and 
quite frankly I think consumers are demanding it. I think if we 
had more infrastructure out there, if we had more opportunities 
for E15, I know at least in Iowa but I think around the 
country, folks would in fact buy the E15.
    I know you have talked about a legislative fix achieving 
that goal. Members of this Administration including your deputy 
administrator have indicated that the RVP fix can be made 
through the administrative process through EPA and that EPA is 
committed to completing the analysis. Can you update us at this 
point where you are in that analysis?
    Mr. Pruitt. Well, I am not sure to whom you refer as far as 
the deputy, but I will say to you that I have been personally 
involved in the evaluation of the statutory authority for us to 
grant a national waiver 12 months a year and it is something we 
are evaluating, but that has not been concluded yet.
    Mr. Loebsack. I really hope that you will move in that 
direction, then we wouldn't have to have a legislative fix. It 
is clear that the demand is there for that and it is clear that 
I think what was done previously by the EPA was the wrong way 
to go. So I would look forward to you moving forward on that.
    Mr. Pruitt. What I would say to you is I appreciate that 
and I would say to you that as I shared with the folks there in 
Iowa on Friday, if the statute permits us to do that we will 
proceed that direction, if it doesn't we will advise Congress.
    Mr. Loebsack. All right, thank you very much. And thank 
you, Mr. Chairman.
    Mr. Shimkus. The gentleman yields back. I thank my 
colleagues. Seeing no further members wishing to ask questions, 
I would like to thank our witness again for being here.
    Mr. Pruitt. Thank you, Chairman.
    Mr. Shimkus. We have a unanimous consent request. Earlier 
today we entered into the record a 2012 letter response to the 
committee from Administrator McCarthy regarding policy 
decisions concerning the use of particulate matter. This 
information was also entered into the record of an EPA hearing 
last year along with the initial committee letter and EPA's 
supplemental response.
    To ensure this hearing is just as complete, I ask unanimous 
consent to enter the full correspondence surrounding that 
letter into the hearing record as well. Without objection, so 
ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. Pursuant to the rules, I remind all members 
that they have 10 business days to submit additional questions 
for the record and ask the witnesses to submit their responses 
within 10 days of receipt of the questions. Without objection, 
the committee is adjourned.
    [Whereupon, at 4:34 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:] 
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
                                 [all]
</pre></body></html>
